<html>
<title> - HURRICANE KATRINA: URBAN SEARCH AND RESCUE IN A CATASTROPHE</title>
<body><pre>[Senate Hearing 109-757]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-757
 
      HURRICANE KATRINA: URBAN SEARCH AND RESCUE IN A CATASTROPHE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION




                               __________

                            JANUARY 30, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
26-751                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                        Asha A. Mathew, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                    Joshua A. Levy, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2

                               WITNESSES
                        Monday, January 30, 2006

William M. Lokey, Operations Branch Chief, Response Division, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................     6
Brigadier General Brod Veillon, Assistant Adjutant General for 
  Air, Louisiana National Guard..................................     9
Lieutenant Colonel Keith LaCaze, Assistant Chief, Law Enforcement 
  Division, Louisiana Department of Wildlife and Fisheries.......    12
Captain Timothy P. Bayard, Commander of the Vice Crimes/Narcotics 
  Section, New Orleans Police Department.........................    14

                     Alphabetical List of Witnesses

Bayard, Captain Timothy P.:
    Testimony....................................................    14
    Prepared statement...........................................    63
LaCaze, Lieutenant Colonel Keith:
    Testimony....................................................    12
    Prepared statement...........................................    55
Lokey, William M.:
    Testimony....................................................     6
    Prepared statement...........................................    41
Veillon, Brigadier General Brod:
    Testimony....................................................     9
    Prepared statement...........................................    51

                                Appendix

Questions and responses for the Record from Mr. Lokey............    68
Exhibit 1........................................................    73
Exhibit 6........................................................    79
Exhibit 12.......................................................    80


      HURRICANE KATRINA: URBAN SEARCH AND RESCUE IN A CATASTROPHE

                              ----------                              


                        MONDAY, JANUARY 30, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good afternoon. The Committee will come 
to order.
    In the first hours and days after Hurricane Katrina struck, 
heroes emerged. Across all levels of government, search-and-
rescue personnel took swift action, saving thousands of the 
storm's victims. These men and women saved the lives of others 
amid great peril to themselves. They demonstrated outstanding 
courage, devotion to duty, and inspiring ingenuity.
    A great many of these rescuers carried on despite the fact 
that their own homes and communities had been destroyed. They 
also faced obstacles exacerbated by an absence of planning, a 
lack of direction and leadership, and a misallocation of 
resources.
    The purpose of today's hearing, the 12th by the Committee 
on Hurricane Katrina, is to examine the search-and-rescue 
operations in New Orleans and its vicinity. Our witnesses today 
represent local, State, and Federal agencies that were involved 
in these operations. I look forward to their testimony as they 
recount their agencies' efforts to locate trapped hurricane 
victims and to move them to safety.
    It is also the purpose of this hearing to dig deeper, to go 
behind the scenes. We will explore the planning that went into 
preparing for a disaster that had been predicted for years and 
was imminent for days. We will discuss how well those plans 
were carried out when disaster finally struck. We will learn of 
the impediments these agencies faced to full coordination and 
effective communication and the difficulties they encountered 
from the lack of necessary equipment to the management of 
volunteers and other offers of assistance.
    More specifically, this hearing is intended to shed light 
on the following issues:
    Were Federal, State, and local efforts to preposition 
search-and-rescue assets successful? While some efforts to 
position critical assets in safe areas near the strike zone 
worked well, it is clear that many did not. As a result, 
valuable transportation assets that could have been used to 
expedite the rescue of victims were lost. In other cases, 
extraordinary measures had to be taken to save those resources 
before they could be used to save people.
    How effective was FEMA in supporting the search-and-rescue 
efforts mounted by the State of Louisiana? The record appears 
to be very mixed.
    Should FEMA play a greater role in supporting search-and-
rescue operations in flood situations? This hearing will 
demonstrate that FEMA has seen its search-and-rescue role as 
largely confined to situations involving building collapses 
such as occur in earthquakes. Yet testimony at the hearing we 
held last week on Hurricane Pam exercise indicates that 
drowning is the principle cause of death in natural disasters.
    How well were search-and-rescue efforts coordinated? The 
individual heroism and the extraordinary efforts that occurred 
cannot mask the fact that coordination at all levels of 
government was poor, resulting in the inefficient use of 
resources, needless danger to first responders, and prolonged 
suffering for the victims.
    One key search-and-rescue agency that is not testifying 
today is the U.S. Coast Guard. That is because we examined the 
Coast Guard's outstanding performance in great detail at our 
hearing on November 9. We learned that their success was 
largely due to three principles: Extensive planning and 
training that was actually put into practice when needed; the 
careful prepositioning of assets out of harm's way but close 
enough to the front lines to be immediately available; and a 
command and control structure that empowered front-line leaders 
to make decisions. I will be very interested in hearing the 
views of our witnesses on how these principles can be adopted 
across the entire emergency preparation and response community.
    No one has ever doubted the courage and commitment of 
America's emergency responders. Time and time again throughout 
our history they have performed magnificently whenever disaster 
strikes. Hurricane Katrina added a new chapter to this 
outstanding record, but it also revealed significant and 
troubling flaws in planning, preparation, and coordination that 
made their jobs more difficult, put them in needless danger, 
and delayed the rescue of victims. We owe it to them, as well 
as to future victims, to do better.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman. Thanks 
to our witnesses for being here.
    As you indicated, Madam Chairman, today we begin our 12th 
hearing in this investigation, but it also begins a week of 
hearings that will examine how well the Federal, State, and 
local governments heeded the warnings over the years, 
particularly the warnings and lessons of the fictional 
Hurricane Pam exercise that was the subject of last week's 
hearing.
    FEMA paid more than $1.5 million for the Hurricane Pam 
exercise and follow-up workshops which began in July 2004 and 
continued through August 2005, just days before Katrina made 
landfall. One hundred and forty-seven representatives of 15 
Federal agencies, 20 State agencies, 13 parishes, 5 volunteer 
agencies, the Louisiana Office of Homeland Security and 
Emergency Preparedness, FEMA Region VI, FEMA National 
Headquarters, and IEM, Inc.--the contractor that produced the 
exercise--all took part in the fictional Hurricane Pam 
exercise.
    The first draft of the dangers this exercise revealed was 
released in August 2004, more than a year before Hurricane 
Katrina hit landfall, and it was followed by several redrafts 
until the final draft was written and distributed in January 
2005, about 8 months before Katrina.
    The Pam exercise predicted the flooding, the people left 
stranded, the need for fleets of buses to get them out. It also 
predicted that local first responders would be overwhelmed, not 
just figuratively, but literally by the flooding that occurred, 
and that FEMA would therefore need to be ready to step in 
quickly.
    The Pam exercise was, as we know, only the most recent and 
detailed set of warnings given to all levels of government over 
the years about what would happen when the so-called big one 
hit New Orleans as everyone expected it inevitably would one 
day. There was a 1993 report by the former Government 
Accounting Agency, which warned of these dangers in the Gulf 
Coast. Flooding in Biloxi in 1998 after Hurricane Georges, in 
fact, was what convinced Gulf State officials that they were 
unprepared for the big one and led to the appeals for the 
Hurricane Pam exercise. But as we pointed out last week in 
testimony, it took 6 years for it to get going.
    Today we are going to deal with the search-and-rescue part 
of the government's response to Hurricane Katrina. Tomorrow, 
the topic is pre-disaster evacuations, and following that there 
will be panels on post-disaster evacuations, law and order, and 
communications in the wake of Hurricane Katrina.
    Unfortunately, these hearings will show that all of these 
warnings from Hurricane Pam and all that proceeded over the 
years were largely ignored, so that one of America's great 
cities and its people were unprepared and all too unprotected 
when Hurricane Katrina finally struck.
    Today's hearing, Urban Search and Rescue in a Catastrophe, 
not only illustrates the lack of preparedness, but I must say 
also honors the heroes of Hurricane Katrina. Interesting that 
Senator Collins and I chose the same words without previous 
consultation.
    These heroes stepped in, in some ways unprepared and 
unassisted, you might say with nothing but their courage and 
their wits about them, to save tens of thousands of lives. And 
we honor them today. More than 60,000 people rescued by a 
relative handful of these heroes. Today before the members of 
the panel speak and we ask questions, I want to say thank you 
to our witnesses and all of the heroes that you represent who 
are not with us today.
    Although Pam was a clear warning that the search-and-rescue 
efforts in New Orleans would require boats, helicopters, and 
buses, the record shows that these alerts did not draw an 
effective or adequate response. As we will hear from our 
witnesses today, the heroes of Hurricane Katrina did not just 
fight against the predictable aftermath of an enormous, 
catastrophic storm, they also had, too often, to battle with 
bureaucracy, inadequate equipment, and poor planning, all of 
which, in hindsight, seem inexplicable and unacceptable given 
the years of warnings.
    For instance, in that first dark night after the storm 
passed, rescuers went out in a small number of available boats, 
searching for the stranded, their spotlights providing the 
crippled city's only light. But while they had some eyes, as we 
know, they had no ears because their communication equipment 
either did not work or was not compatible with other rescue 
workers. New Orleans police and fire rescuers often had to wait 
20 minutes to get their turn on the overloaded mutual aid 
frequency, and sometimes they had to resort to a variation of 
the childhood game ``operator'' to relay messages to different 
parts of the city step by step because of the limited range of 
the equipment that was still usable.
    The New Orleans Fire Department, which was the city's 
designated lead agency for urban search-and-rescue, owned no 
boats, none, despite repeated requests to the city over the 
years to buy some. The Police Department had just seven. Police 
and fire rescue workers were forced to commandeer, even hot 
wire, boats to begin their life-saving critical rescue work.
    The Louisiana Wildlife and Fisheries rescue workers put on 
what I would consider to be an extraordinary display of both 
organization and courage. On Monday morning, as Katrina was 
still raging, they transported 60 boats to New Orleans from 
their prestaged areas around the State, and by 4 p.m. the same 
day they began to rescue people stranded in the storm. They 
succeeded in rescuing more than 1,500 by the next afternoon, 
and more than 21,000 before it was over. But many of these 
boats were too small for the job, and Wildlife and Fisheries 
requests to FEMA for larger boats went unanswered.
    Unfortunately, it gets worse. There was no plan for the 
evacuation or care of those rescued once they arrived at the 
search-and-rescue collection points. This awful gap in planning 
was not resolved until 2 days after Katrina passed and created 
the grueling and inhumane conditions at the Superdome and on 
the Interstate 10 overpasses.
    Lieutenant Colonel Keith LaCaze of Louisiana Wildlife and 
Fisheries, who is here today to testify, has told us that his 
agency called for medical support at collection points after 
landfall, but to no avail. Ground transportation to evacuate 
was also lacking and fought over by competing agencies with 
competing evacuation missions. Obviously, when it comes to 
search and rescue in a case like this, time is of the essence. 
Hours or minutes wasted, certainly days wasted, can mean saving 
a life or not.
    FEMA search-and-rescue teams did not arrive in New Orleans 
until late Monday afternoon and did not begin their missions 
until Tuesday morning, well after the other Federal, State, and 
local rescuers--and here when I say Federal I mean particularly 
the Coast Guard--had begun their work. It appears--and we will 
ask Mr. Lokey about that--that the FEMA search-and-rescue teams 
were not specifically trained for water rescue. When they got 
there, the members, I believe, also did some heroic work.
    Why the delay and lack of training? Why did FEMA apparently 
have no plan for this particular kind of search-and-rescue 
mission? That is a question I think we are going to want to 
answer.
    After finally beginning operations with those three rescue 
teams on Tuesday, FEMA suddenly stopped those rescue missions 
on Thursday, September 1, apparently because of security 
concerns, but the record seems to show that other Federal, 
State, and local rescue missions continued without 
interruption.
    Today, and in other hearings to follow with other DHS and 
FEMA representatives, we are going to ask why FEMA decided to 
leave the scene of the tragedy.
    Madam Chairman, as you and I have both said, many heroes 
were born in the aftermath of Hurricane Katrina, and thousands 
and thousands of people are alive today thanks to them. What 
those brave men and women did recalls--I cannot phrase it 
better than Churchill did--how so many owe so much to so few.
    But all we can do, and the greatest honor we can pay those 
who risked their lives in the aftermath of Katrina, is to make 
sure that the heroes of the next catastrophe, which will surely 
come, whether from a natural disaster, or God forbid, a 
terrorist attack, are given the proper equipment, a clear and 
comprehensive plan, and all the support they need to carry out 
their life-saving work. Thank you.
    Chairman Collins. Thank you.
    I am very pleased to welcome our four witnesses today. 
William Lokey is the Operations Branch Chief in the Response 
Division of FEMA. He served as the Federal Coordinating Officer 
for Louisiana during Hurricane Katrina, and he has more than 25 
years of emergency management experience.
    Brigadier General Brod Veillon is the Assistant Adjutant 
General of the Louisiana National Guard, the Commander of the 
State Air National Guard, and its Search and Rescue 
Coordinator. The General is an experienced fighter pilot and 
served for 13 years on active duty with the U.S. Air Force.
    Lieutenant Colonel Keith LaCaze is the Assistant Law 
Enforcement Division Administrator for the Louisiana Department 
of Wildlife and Fisheries, which is the lead agency for search 
and rescue under the State Emergency Operations Plan. 
Lieutenant Colonel LaCaze has served with the Department for 28 
years.
    Captain Timothy Bayard is the Commander of the Vice and 
Narcotics Squad of the New Orleans Police Department and has 
been with the Department since 1975. In the immediate aftermath 
of Hurricane Katrina, he and three fellow officers established 
a command post at a New Orleans casino.
    I welcome you all to the Committee. I would ask that you 
all rise so I can administer the oath.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Lokey. I do.
    General Veillon. I do.
    Colonel LaCaze. I do.
    Captain Bayard. I do.
    Chairman Collins. Thank you. Mr. Lokey, we will begin with 
you.

  TESTIMONY OF WILLIAM M. LOKEY,\1\ OPERATIONS BRANCH CHIEF, 
 RESPONSE DIVISION, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Lokey. Good afternoon, Chairman Collins and Senator 
Lieberman. I am William Lokey, the Operations Branch Chief of 
the Response Division of FEMA. It's an honor to appear before 
you today to discuss the activities of the National Urban 
Search and Rescue System in response to Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lokey appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    FEMA appreciates your interest in this particular part of 
our response to this unprecedented disaster. I think we all 
recognize that the hurricanes of 2005, in particular Hurricane 
Katrina, thoroughly stressed the capabilities of FEMA, as well 
as the Nation.
    Under very difficult circumstances, members of FEMA's Urban 
Search and Rescue Program (US&R) rose to the occasion, working 
outside the scope of their regular mission, although well 
within the authority of the Stafford Act, and Urban Search and 
Rescue provided guidance and leadership to State and local 
personnel and volunteers who were organizing their response in 
this effort. These efforts resulted in saved lives, plus 
provided necessary assistance and comfort to numerous citizens 
in the affected disaster.
    Allow me to provide a brief overview to the National 
Disaster System.
    Experiences gained and awareness from the responses to the 
major earthquakes in Mexico City and Armenia in 1980 
dramatically demonstrated the need for specialized urban 
search-and-rescue capability in the United States.
    In March 1989, hearings were held in the reauthorization of 
the National Earthquake Hazard Reduction Act by the 
Subcommittee on Science of the House Committee on Science, 
Space, and Technology. Following the Loma Prieta earthquake, 
which occurred in the San Francisco area in October of that 
year, $800,000 was provided to FEMA for one-time grants to 
accredited State and local search-and-rescue organizations for 
the training and the acquisition of special equipment and to 
develop specialized teams. Thus, the National Urban Search and 
Rescue System was born.
    After 17 years and numerous activations to hurricanes and 
earthquakes, as well as to the Oklahoma City bombing, the World 
Trade Center, the Pentagon, and other emergencies, there are 
now 28 sponsored National Urban Search and Rescue Task Forces 
located throughout the United States that are trained and 
equipped to handle structural collapse rescue.
    The 28 teams are comprised of State, local, nonprofit 
organizations, and volunteers. These teams are based in their 
home communities and States. Except when deployed for Federal 
activation, the team members and the teams themselves operate 
in their home States. One of the basic foundations of the 
system, in return for making these State and local resources 
available to the Federal Government, the Federal Government 
provides resources and training that allow the teams to better 
serve their communities.
    Any of these national task forces can be activated and 
deployed by FEMA to a disaster area to provide assistance in 
structural collapse rescue or may be prepositioned when a major 
disaster threatens a community. When activated, the task force 
can be dispatched and en route to its destination in a matter 
of hours.
    Each task force is comprised of 70 specialists and is 
divided into six major functional elements of search, rescue, 
medical, hazardous materials, logistics, and planning. They may 
be divided into two 35-person teams, which allows for rotation 
and relief of personnel for round-the-clock operations. A full 
team of this size is referred to as a Type I task force.
    The task forces also have the flexibility to reconfigure 
and deploy as one 28-person team, which we call a Type III 
team, in response to small, primarily weather-driven incidents, 
where the requirements would be physical, technical, and canine 
search, and light search and rescue in wood frame construction. 
Such events typically include hurricanes, tornadoes, ice 
storms, and typhoons.
    When the system responds, a management group called the 
Incident Support Team also responds to support the teams. The 
IST, as it's called, provides command and control for 
supporting local and State rescue operations.
    Some of the capabilities of a US&R Task Force are: The 
physical search-and-rescue operations in damaged or collapsed 
structures; operation in known or suspected weapons of mass 
destruction environments; emergency medical care for entrapped 
victims, task force personnel and search canines; 
reconnaissance to assess damage and needs and provide feedback 
to other officials; assessment and shut-off of utilities to 
houses and buildings; hazardous material survey and 
evaluations; structural and hazard evaluations of buildings; 
stabilizing damaged structures, including shoring and cribbing; 
and they carry approximately 62,000 pounds of equipment with 
them, configured to quickly deploy with the team.
    Let me now provide a brief overview of US&R operations for 
Hurricane Katrina. I was deployed and arrived in Baton Rouge on 
Saturday evening, August 27. Also with me was Richard Deir, my 
Emergency Response Team--the National ERT-N, as it's called--
Emergency Services Branch Chief. He was an experienced person 
with ESF-9, which is the Emergency Support Function for Urban 
Search and Rescue. He began working with personnel for 
Louisiana Wildlife and Fisheries, the National Guard, the Coast 
Guard, and others who were at the State EOC, planning for 
potential search-and-rescue operations. We had also embedded 
staff from IEM, the contractor who helped with the Hurricane 
Pam workshops, to be there also to provide technical 
assistance.
    Before landfall, three task forces, one Type I and two Type 
III, and the Blue IST were stationed at Barksdale Air Force 
Base in Shreveport, Louisiana. Two task forces, one Type I and 
one Type III, and the Red IST were staged in Meridian, 
Mississippi, at the Meridian Naval Air Station. Five additional 
task forces, two Type I and three Type III, were put on alert, 
and then on Sunday, five additional task forces were added to 
that.
    By the morning of August 30, eight additional task forces, 
three Type I and five Type III, and eight of the California 
Swift Water Rescue Teams were activated and en route to 
operations in Mississippi and Louisiana. On August 31, 10 
additional task forces, all Type I, were activated and staged 
to assist.
    In Mississippi, the task forces responded the morning after 
Katrina. They were used in four counties. The theater of 
operations spread 85 miles along the Mississippi coastline. 
They worked in close cooperation with the Coast Guard in 
carrying out the searches and developing appropriate 
documentation. They located 60 deceased victims. They also 
located three live victims and gave medical care to 35 people. 
A total of 15 task forces worked in Mississippi and demobilized 
on September 10.
    In Louisiana, the task forces departed from Barksdale Air 
Force Base when weather permitted on Monday afternoon, August 
29. The leadership and some of the task force members came to 
Baton Rouge, where they were briefed, where they programmed 
their radios to work on local frequencies, and they departed 
for the New Orleans area. They were destined to go to what we 
called in Metairie the Sam's Club parking lot. Teams started 
arriving there Monday evening. The teams met up with U.S. Coast 
Guard representatives and those from Louisiana Wildlife and 
Fisheries, who were leading the search operations.
    They were later asked by the State to move their base of 
operations to Zephyr Field, which is about five miles from New 
Orleans. During this time the Louisiana State Wildlife and 
Fisheries Department was organizing boats for Urban Search and 
Rescue personnel use. When the boats were secured early Tuesday 
morning, the rescue operations were launched.
    The water rescue operations carried out in the New Orleans 
area may be one of the largest life-saving efforts in history. 
It was a local, State, and Federal team effort. Tens of 
thousands of people were saved or assisted in the flooded area, 
and the FEMA US&R personnel accounted for 6,582 people saved or 
assisted. Over 22,300 structures were searched. They also 
helped to identify locations and helped recover more than 300 
human remains, over 25 percent of the victims. They were also 
asked by the State to take a follow-up lead on 22,000 911 
calls. They delivered food and water and assisted unaccounted 
numbers of people in distress.
    Due to our training, we were able to work together with 40 
different teams from 19 States to work as interchangeable parts 
in this rescue effort, and there were no serious member 
injuries in spite of the continuous operations in the highly 
hazardous environment.
    Both Incident Support Teams were instrumental in working 
with State and local folks to set up a unified command that 
helped out a lot in organizing the diverse number of people 
that were there along with teams that arrived through the 
Emergency Management Assistance Compact, or EMAC, that arrived 
over the first several days.
    With the assistance from FEMA logistics, within 5 to 6 
days, base camps were built from literally nothing to provide 
support to over 3,000 people and support helicopter rescue 
operations. Our teams also assisted in capping approximately 40 
broken gas mains.
    It is especially important to note that water rescue is not 
part of the US&R mission, although they were somewhat equipped 
to do their collapse structure rescue mission in the water 
environment with personal protective equipment.
    We learned a tremendous amount from this event. We have had 
one meeting already with our task forces to identify lessons 
learned, and a second meeting is taking place as we speak in 
Miami, which I will be departing for tonight to take part in 
the planning effort.
    One of the most significant efforts we have going from our 
lessons learned and for the program is the development of a 5-
year strategic plan. Through this process, in the partnership 
with members of the system, the sponsoring chiefs, and the 
various organizations, our goal is to actually define what the 
system is and what we should be providing. It was designed for 
rescue in collapsed structures. The ability to work in a 
weapons of mass destruction environment was added as a result 
of the events of September 11. We recently added the capability 
to accomplish our structural collapse mission in a water 
environment such as providing personal flotation devices for 
the rescuers.
    Our goal is to work with the task forces and the States to 
come up with a recommendation on what the system needs to be. 
An example of working in a water environment in a collapsed 
structure, down in the depths of the World Trade Center they 
were using boats several floors down due to the broken water 
mains, so it is necessary as part of that mission.
    The men and women of the urban rescue program represent the 
finest tradition of search and rescue in America. For the job 
they did, and the risks they took, and the lives they saved, 
they deserve high praise.
    Thank you very much for allowing me to be here. I stand 
ready to answer your questions.
    Chairman Collins. Thank you, Mr. Lokey. General Veillon.

   TESTIMONY OF BRIGADIER GENERAL BROD VEILLON,\1\ ASSISTANT 
       ADJUTANT GENERAL FOR AIR, LOUISIANA NATIONAL GUARD

    General Veillon. Thank you, Chairman Collins and Senator 
Lieberman. I am Brigadier General Brod Veillon. I am the 
Assistant Adjutant General for Air of the Louisiana National 
Guard.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Veillon appears in the 
Appendix on page 51.
---------------------------------------------------------------------------
    On Sunday, August 28, at about 10 a.m., the Adjutant 
General called and asked me to coordinate the Louisiana 
National Guard's support of the Louisiana Wildlife and 
Fisheries search-and-rescue efforts in response to Hurricane 
Katrina. I called a meeting at 2:30 p.m. of the agencies that 
would participate in the search-and-rescue operations. The 
meeting occurred at the Louisiana Office of Emergency 
Preparedness. Representatives from the following agencies 
participated: The U.S. Coast Guard, Louisiana Wildlife and 
Fisheries, Louisiana State Police, FEMA and FEMA DMORT 
personnel, as well as the Civil Air Patrol. We discussed 
capabilities of each of our organizations and areas of 
responsibilities.
    I arrived at the Louisiana National Guard Headquarters, 
Jackson Barracks, New Orleans, on Sunday, August 28, at 5 p.m.
    The National Guard, as well as the Louisiana Wildlife and 
Fisheries, had positioned small boats and rescue equipment at 
Jackson Barracks to be used for the search-and-rescue effort. 
Sunday night, I was in the National Guard Joint Operations 
Center monitoring the storm's progress.
    Monday morning, August 29, as the eye of the storm 
approached New Orleans, flood water began to quickly rise. It 
went from about one foot deep, mainly associated with the heavy 
rain, to 10 feet deep in 30 minutes. This was a dramatic surge 
of water. Jackson Barracks was quickly covered. In some places 
it was over 20 feet deep. A local AM radio station was 
reporting that the Industrial Canal Levee had broken and that 
the 9th Ward was flooding.
    We had prepositioned 18 boats at Jackson Barracks. The 
rapidly rising water prompted concern that we may lose the 
equipment and motors, so I directed the National Guardsmen to 
move all equipment and motors to the second floor. Wildlife and 
Fisheries had also parked their boats on trailers adjacent to 
our Operations Center and I noticed that they were all floating 
with their trailers attached.
    By mid afternoon of Monday, August 29, the wind and the 
rain had subsided enough where we could use our boats to begin 
the rescue effort. Because of the depth of the water, we used 
one of our small boats to motor over to the larger boats. I put 
a guardsman into the water with bolt cutters to cut the boats 
loose from their trailers. We bailed them of their rain water 
and put two National Guardsmen in each. At that time I was 
thinking we would probably find a few people who would need 
help. We moved out into the immediate neighborhood, and as I 
looked around, there were people on rooftops in every direction 
calling for help.
    There were many natural gas pipeline breaks, which formed 
small geysers, and several houses were on fire. I was expecting 
to find a few, but what I found were hundreds. My team and I 
began taking people into our boats. The water was deep enough 
to allow us to dock on the rooftops. The wind and the rain made 
it very difficult to maneuver in and around these homes. 
Telephone and electrical lines had to be lifted by hand to 
allow us to pass beneath them.
    At the third house I approached, the people there advised 
me that their neighbor was trapped in her attic. We docked on 
her roof and removed the roof vent. Looking down, we could see 
her crying for help. My crew and I used an axe to cut a hole in 
her roof, and several of us reached down and lifted her to 
safety. The rapidly rising water had forced her up into her 
attic, where she became trapped, unable to go higher, and she 
could no longer go down.
    This sequence of events was repeated over and over and over 
again, National Guardsmen cutting holes in rooftops to lift 
people out. Our boats would quickly fill, and we would motor 
toward the Mississippi River levee, which took them out of the 
immediate danger and placed them on good high ground. This 
action made them visible to follow-on forces who were tasked, 
during earlier coordination meetings, to evacuate them by air, 
land, or boats on the river.
    We continued this effort until nightfall. At that time the 
Joint Operations Center moved from Jackson Barracks to the 
Louisiana Superdome. Search and rescue operations continued 
through the night. I boarded one of the helicopters to the 
Superdome and continued my coordination from there.
    During the night, National Guard, as well as U.S. Coast 
Guard helicopters, began flying over the city and assessing the 
situation. It was clear that Hurricane Katrina had dealt a 
catastrophic blow to the city of New Orleans and the State of 
Louisiana. When the sun rose on Tuesday morning, the Superdome 
was an island, surrounded by 6 feet of water in every 
direction. I could see columns of smoke rising from several 
buildings in the city.
    The Superdome had become the center of gravity of our 
search-and-rescue efforts. We used the top floor of a parking 
lot as an additional helicopter landing zone. Helicopters began 
lifting people from rooftops throughout the city, bringing them 
to the Superdome. National Guard medics would assess the 
rescued for medical care. We would give them food and water, 
and direct them away from our helicopter landing area. 
Sometimes we were lifting people to safety via hoist, and other 
times these helicopters would lightly land on the rooftops 
where people would climb in.
    I direct your attention to my left and some of the 
photographs that we brought to accompany my testimony.
    We used the EMAC process to request and receive additional 
helicopters from other States to assist us with the search-and-
rescue effort. In every direction I could see helicopters all 
over the city, hovering and lifting people to safety. This 
helicopter operation went on 24 hours a day. At night our crews 
used airborne spotlights, night vision goggles, as well as on-
board infrared capabilities. The city was completely dark at 
night, and many who were waiting rescue would flash flashlights 
at us.
    The Louisiana Wildlife and Fisheries used their boats to 
comb through the neighborhoods, house to house, searching and 
rescuing people from their flooded homes. All high ground, 
bridges and elevated highways, became drop-off points for the 
boats. Helicopters were used to pick up the people at these 
sites and transport them to the Superdome.
    In the days following the storm, the number of helicopters, 
as well as boat assets, grew rapidly, as more and more States, 
as well as the Federal Government, sent personnel and equipment 
in to assist us. With each passing day more and more people 
were lifted to safety. By Thursday, September 1, most of the 
people in need had been rescued.
    In many areas of the city the water was too deep for our 
high-water vehicles to enter. So we relied to a great extent on 
small boats and helicopters. Except for the Chinook helicopter, 
we were only able to take small groups at a time, but over time 
all were brought out to safety.
    I am very proud of all who were involved, State, Federal, 
military, and local volunteers.
    In the face of Hurricane Katrina, the greatest natural 
disaster to hit the United States, a disaster of biblical 
proportions, over 72,000 people were safely lifted to high 
ground and evacuated out of the city. I am proud of the 
National Guard and proud that I had a part in the Hurricane 
Katrina effort. I look forward to answering your questions. 
Thank you.
    Chairman Collins. Thank you. Lieutenant Colonel LaCaze.

  TESTIMONY OF LIEUTENANT COLONEL KEITH LACAZE,\1\ ASSISTANT 
   CHIEF, LAW ENFORCEMENT DIVISION, LOUISIANA DEPARTMENT OF 
                     WILDLIFE AND FISHERIES

    Colonel LaCaze. Thank you. Good afternoon, Chairman 
Collins, Senator Lieberman, and Senator Pryor. Thank you for 
having us here. My name is Keith LaCaze. I am the Assistant 
Chief of Law Enforcement with the Louisiana Department of 
Wildlife and Fisheries.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel LaCaze appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    The Department of Wildlife and Fisheries enforcement agents 
were among the first search-and-rescue teams to arrive in New 
Orleans. We had to wait for landfall and passage of Hurricane 
Katrina. We had experience with planning and response to storm 
impacts in Louisiana dating back as far as Hurricane Andrew in 
1992. Prior to Katrina's landfall, the Department of Wildlife 
and Fisheries had alerted its personnel and staged boats and 
vehicles at locations near Baton Rouge and the central part of 
the State in anticipation of response to the impacted areas.
    By 9 a.m. of the morning of Monday, August 29, Wildlife and 
Fisheries response teams were moving to unite in Baton Rouge. 
By 1 p.m., the response teams were en route to New Orleans. The 
initial group was made up of 120 agents, boats, and four-wheel 
drive vehicles.
    The teams arrived in New Orleans at about 4 p.m. We had 
boats in the water and started making rescues in the New 
Orleans East area at St. Claude Avenue Bridge, Esplanade, 
Elysian Fields, Franklin Avenue, and St. Bernard Avenue by 
dark. Prior to that, we had started evacuating a nursing home 
in the Power Boulevard area of Kenner. Rescues in the 
neighborhoods under the nighttime conditions and the flooded 
streets were further complicated by debris, downed power lines, 
obstructions, and water at depths of up to 15 feet in some 
areas.
    I have to tell you that it's just unimaginable to see the 
conditions, and after dark, with the obstructions and the 
downed trees and the obstructions in the neighborhoods, in the 
dark, no lighting, you could hear the cries for help, and our 
officers went out in the boats into areas that they weren't 
very familiar with, and some of the city streets, and would go 
into those areas and come out with boat loads of people. And it 
was a very gratifying thing to see, and very remarkable.
    Despite the challenges that we faced, the people were 
rescued from rooftops, attics, and makeshift boats floating in 
the neighborhoods. Anything that they could grab onto or they 
could place themselves on, we found them there. Many were sick 
and injured people. The population included elderly, people 
with chronic medical conditions such as diabetes and those 
requiring dialysis, and many who had suffered injuries due to 
falls or mishaps during and after the storm.
    Rescue operations continued throughout the night, and by 
break of day on Tuesday, August 30, we estimated nearly 2,000 
citizens had been moved to safety on the elevated portions of 
I-10 and I-610. By midmorning Tuesday, additional Wildlife 
enforcement agents and Department biologists, technicians, and 
specialists, strengthened our rescue effort. We brought out 
even more people.
    In the following days, we were joined by Conservation 
officers from responding States, including Texas, Missouri, 
Kentucky, Tennessee, Ohio, Minnesota, Michigan, North Carolina, 
and South Carolina. We were joined by volunteers and fire 
rescue and police and sheriff's deputies from local agencies 
throughout the State. Everyone demonstrated levels of 
determination, dedication, and professionalism beyond my 
ability to adequately describe.
    In all, Wildlife and Fisheries rescued an estimated 21,000 
people. We were joined by the Louisiana National Guard, the 
Coast Guard, State Police, and local law enforcement. In all, I 
am told that 60,000 people were rescued in the New Orleans and 
St. Bernard Parish areas from houses, hospitals, nursing homes, 
schools, and churches, anywhere people had taken refuge to 
escape the flooding.
    LSU Hurricane Center scientist Ezra Boyd wrote in the Times 
Picayune, January 16, 2006, Your Opinions column that the 
Katrina death toll could have reached 10,000 and that search-
and-rescue operations of this unprecedented magnitude resulted 
in a significantly lower death toll than could have occurred.
    Hurricane Pam exercise predicted that 60,000 would die in a 
catastrophic storm. We saved 60,000.
    I am proud to have been part of this life-saving effort. I 
am proud of my Department. Where we met obstacles and 
challenges, we improvised. Where we found problems, we came up 
with solutions. Communications failures severely affected our 
ability to coordinate search and rescue effectively. Katrina 
destroyed the communications infrastructure. Without towers and 
antennas, the radios just don't work, cell phones don't work. 
Then came the flood, and this took out the land telephone 
lines. Louisiana had redundant communications. We had 
interoperability. Katrina just smashed it all to pieces.
    In order to build more redundancy, we must get funding from 
Congress for expanded radio systems. The Nation's need for 
interoperable communications was identified after September 11. 
Homeland Security was created after September 11. We look to 
you, the oversight committee for Homeland Security, for this 
funding. We are already working on preplanning with other 
agencies, including Louisiana State Police, Louisiana Army 
National Guard, and U.S. Coast Guard, who are our partners in 
search-and-rescue operations. We want to use the lessons 
learned from Katrina to be ready for the next storm. Our 
biggest lesson, flexibility, was a key component to our 
success.
    I am very excited about our initiative to create a trained 
search-and-rescue volunteer force. We are partnering with the 
U.S. Coast Guard Auxiliary to accomplish this. We have designed 
the specifications for a new mobile command unit, and it is on 
order. We have already purchased 32 small boats with outboard 
motors to improve our response to urban flooding. We have 
obtained input from field level personnel, the guys on the 
ground, on ways to improve for future missions. More and better 
equipment is needed, especially in the communications area. We 
must develop a list of preapproved contractors who are 
authorized to perform search-and-rescue missions on behalf of 
State or Federal agencies, with the expectation of payment for 
services provided.
    Written standard operating procedures describing 
preparedness levels and specific actions to be taken with 
approach and landfall of major storms or events have been 
developed. In the next 6 months, our agency will provide 
additional search-and-rescue training for in-service personnel 
and future academy classes. We will apply for grants for money 
to acquire additional emergency search-and-rescue equipment 
needed for similar operations in the future. We will enhance 
the training of mid-level supervisory personnel in search-and-
rescue organization and coordination. We will meet and train 
with other agencies involved in response for better joint 
agency performance. We will explore equipment and training 
levels at local agencies to determine resources available and 
their location. We want to build a better team with our local 
and Federal search-and-rescue partners.
    In closing, I must emphasize the dedication of the 
Louisiana Department of Wildlife and Fisheries staff members 
who responded to this crisis, particularly those enforcement 
agents, biologists, and technicians who lost homes and personal 
property in the same flooded areas where they worked so 
diligently to help others. These men and women in many cases 
evacuated with nothing more than their families and the clothes 
they were wearing. They got their families to safety, then 
immediately returned to face this task. Without their knowledge 
of the local area and their ability to guide rescue forces 
through the confusion of flooded roads and streets, our mission 
would not have been nearly as effective and successful.
    I would like to thank the Chairman and all Committee 
Members for the opportunity to speak and to answer any 
questions.
    Thank you.
    Chairman Collins. Thank you. Captain Bayard.

  TESTIMONY OF CAPTAIN TIMOTHY P. BAYARD,\1\ COMMANDER OF THE 
  VICE CRIMES/NARCOTICS SECTION, NEW ORLEANS POLICE DEPARTMENT

    Captain Bayard. Good afternoon. I appreciate the 
opportunity to appear before you today. My name is Tim Bayard. 
I'm a Captain with the New Orleans Police Department, Commander 
of the Vice Crimes and Narcotics Division. I have been a member 
of the Department for 30 years. I coordinated and directed the 
water rescue and recovery operations throughout the city of New 
Orleans following Hurricane Katrina. I am here today to relay 
my experiences, which began prior to Katrina's arrival and 
include the 14 days that followed.
---------------------------------------------------------------------------
    \1\ The prepared statement of Captain Bayard appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    Let me briefly explain the events that led to my 
coordination of the massive water-based rescue and recovery 
operations.
    In 1965, I experienced Hurricane Betsy. My father was a New 
Orleans fireman. Based on my conversations with him, I had a 
good recollection of the areas of the city which flooded as a 
result. I knew which areas of the city were high and the 
available routes to access bridges and overpasses suitable for 
boat launch locations. Forty years later, many of the same 
areas flooded again. The high ground was essentially the same.
    On Friday, August 26, at approximately 11:30 p.m., I 
learned that New Orleans was in the cross-hairs of Katrina. I 
spoke with Deputy Superintendent Warren Riley, Commander of 
Field Operations, and suggested items that would be immediately 
needed following the storm's impact. This information was also 
forwarded to the Office of Emergency Preparedness.
    On Saturday, August 27, I instructed the supervisors under 
my command to contact each member of our division with 
instructions to evacuate their families and rally at our office 
at 12 noon on Sunday, August 28. Each member was instructed to 
bring at least 3 days supply of food and clothing.
    On Sunday, August 28, we removed our division's vehicles 
from the Equipment Maintenance Division, an area prone to 
flooding. All of our vehicles were fueled for deployment. With 
the exception of our high-water vehicles, all vehicles were 
secured in the Superdome parking lot and at the Convention 
Center.
    My unit patrolled the central business district, while I 
privately negotiated safe housing for my officers. The 
Narcotics Unit was housed at the Maison Dupuy Hotel, the Vice 
Crimes Section was housed at the Marriott. Once the sustained 
winds reached 55 miles an hour, my units were instructed to 
return to their respective hotels.
    I later met with Captain Jeff Winn, Commander of the Tac 
teams and Special Operations Command, and Captain Harry 
Mendoza, Commander of the Traffic Division. Together we 
established a rally point which was Harrah's Casino, which is 
at the foot of Canal Street, one of the highest points in the 
city. We agreed to meet there following the storm.
    We, however, were not equipped with any emergency rescue 
equipment, provisions, or fuel.
    Captain Robert Norton, Commander of the Bomb Squad and the 
Dive Team, was housed in the LSU Dental School, along with the 
Third District contingent. Captain Norton had previously 
deployed our Department's three boats. These boats were 
deployed in Mid-City, Algiers, and New Orleans East. Captain 
Norton, cut off a lot by rising water, was able to conduct a 
hasty rescue operation in the neighborhood adjacent to the 
dental school, utilizing a privately owned boat. Captain 
Norton's boat experienced motor failure, and he himself had to 
be rescued. The three departmental boats were also engaged in 
hasty rescue operations in the same areas. The issue here was 
that none of these efforts were coordinated by a central 
command. Additionally, due to the vehicles and the boat 
trailers being flooded, the mobility was limited.
    Based on contact with our Communications Division, I knew 
that the lower 9th Ward was flooding. Later in the day, we 
additionally learned that Lakeview was also taking on water.
    Immediately after the storm, Captains Winn, Mendoza, and I 
met at Harrah's. Absent instructions from superiors, we made 
decisions to save lives. Routes were identified to access 
bridges and overpasses we utilized as boat launches. The 
problem was that we only had five boats at our disposal, two of 
which were commandeered. The Harbor Police met us on the St. 
Claude Bridge and worked side by side with members of the 
Tactical Unit and the Narcotics Unit in our continued efforts 
to save lives. Other members of the Tactical and Narcotics 
Units teamed up with firemen in conducting rescue operations in 
Lakeview Gentilly. The Vice Unit transported evacuees to the 
Superdome and Convention Center utilizing two 15-passenger vans 
and a pickup truck.
    The first night, we lost communication with three 
detectives trapped by rising water. The batteries on our radios 
were depleted, and they were unable to call for help. After 
spending the night attempting to locate the missing detectives, 
they appeared at the hotel the following morning.
    The following night, three Tactical Unit officers were 
lost. Again, without communication, officers set out in search 
of their colleagues. At 11:30 p.m., the officers returned to 
Harrah's. All six officers had to walk through the water to get 
back to their respective units.
    By day three, Captain Winn was given the two-pronged task 
of rescuing trapped law enforcement officers and responding to 
violence. From that point forward, the Tactical Unit ceased 
civilian boat rescues and became the primary rapid response 
unit for the countless acts of violence.
    Given the change of Captain Winn's mission and the fact 
that Captain Norton was trapped by surrounding water, I became 
the sole commander of the water rescue operations.
    Our efforts were not coordinated with other agencies. Our 
communication system was inoperable. We had no aerial views to 
ascertain water levels necessary to prioritize our rescue 
operations. Through public service announcements, we welcomed 
citizens from various areas in the State of Louisiana and other 
States, equipped with privately owned boats, who met us at 
Harrah's, to assist us in rescue operations. In an effort to 
coordinate rescue efforts, several contacts were made with 
Louisiana Wildlife and Fisheries.
    By happenstance, I met with members of the U.S. Army 20th 
Group Special Forces. This meeting propelled our rescue 
operation to another level. We immediately gained access to 
helicopters, Zodiac boats, and trucks. Captain Will Lynn became 
my counterpart. With the Special Forces Group, we set up a 
forward command post equipped with maps, asset boards, and 
deployment strategy. This was the first incident command center 
established following the event. From that moment forward, it 
became the command from which all water rescue operations were 
deployed.
    For 14 days, my division was involved in water rescue 
operations. At no point did we have a truly unified command.
    In week three, we finally coordinated with FEMA. That is 
when we began conducting secondary rescue operations. We worked 
along with Fire Department search-and-rescue units from other 
States through November 2005.
    Mistakes. The New Orleans Office of Emergency Preparedness 
failed. They did not prepare themselves, nor did they manage 
the city agencies responsible for conducting emergency response 
to the disaster. Their function was to coordinate with State, 
Federal, and other local agencies to enlist logistical 
assistance. We did not coordinate with any State, local, or 
Federal agencies. We were not prepared logistically. Most 
importantly, we relocated evacuees to two locations where there 
was no food, water, or portable restrooms. We did not implement 
the pre-existing plan. We did not utilize buses that would have 
allowed us to transport mass quantities of evacuees 
expeditiously. We did not have food, water, or fuel for the 
emergency workers. We did not have a back-up communication 
system. We had no portable radio towers or repeaters that would 
enable us to communicate. The other mistakes have been 
mentioned previously.
    The remedies. New Orleans Police Department now has a fully 
staffed Bomb Squad and Dive Team. It is equipped with four flat 
boats and one 16-foot V-hull. We have two 8-wheel all terrain 
vehicles for shallow water rescue. Captain Norton is currently 
negotiating with the State officials in an attempt to secure 
privately owned boats that were abandoned, as well as boats 
that are now owned by insurance companies, in order to increase 
our fleet.
    Captain Norton has met with members of the New Orleans Fire 
Department in an attempt to cross-train police officers and 
firemen in water and urban rescue procedures. This will allow 
the New Orleans Police Department to be the lead agency in 
water rescue, with fire personnel in support, and will allow 
the New Orleans Fire Department to take the lead in structural 
damage rescue, with police officers as support personnel.
    Captain Norton is also attempting to secure a facility to 
house large quantities of food and water for the 2006 hurricane 
season.
    Captain Jeff Strickland, Commander of Miami Dade's Urban 
Search and Rescue Unit, has been contacted by Captain Norton to 
attempt to secure training, as well as to obtain information on 
how and what is needed to outfit a US&R team.
    He is also engaged in conversations with members of the 
Louisiana Wildlife and Fisheries in an attempt to secure boat 
safety training for each member of his unit and each member of 
the Vice, Narcotics, and Tactical Units. I would like to say 
that training will be conducted this Thursday with Louisiana 
State Wildlife and Fisheries.
    Requests. I lived this horror, and as a result, I have 
identified the following equipment needed to adequately prepare 
for the 2006 hurricane season.
    We must establish a regional communications system, as per 
the USAI agreement, that's the Urban Area Security Initiative, 
which allows us to coordinate rescue efforts with surrounding 
jurisdictions, St. Bernard Parish, Jefferson Parish, and 
Plaquemines Parish, all parishes that were affected by the 
storm.
    We need additional flat boats, inflatable boats, air boats. 
We need a fully-equipped US&R trailer. We need training for 100 
members of the New Orleans Police Department.
    The most important thing to me is reimbursement for the 
damages and repairs to police officers and firemen who used 
their personal boats to rescue people, to get their boats 
repaired. The question is, can this equipment and reimbursement 
be funded through a Community Block Development Grant? That I 
don't know.
    I would like to make two suggestions if I may. I suggest or 
request that someone draft legislation to mandate that all 
health care facilities, hospitals, raise their emergency 
generators and fuel reservoirs to a minimum of 32 feet. Also 
mandate that they have enough fuel to operate the generators 
for at least 3 days. How many individuals on life support 
perished due to generator failure? Many generators are located 
in basements. The basement of every hospital in New Orleans 
flooded.
    Additionally draft legislation to mandate mandatory 
evacuation of all one- and two-story elderly care centers in 
the event of a Category 3 or higher storm. The city and State 
will be responsible for supplying the vehicles needed to 
transport the elderly. These patients will be relocated to a 
facility that will accommodate their every need.
    Conclusion. My purpose before you today is to help you 
understand what the members of New Orleans Police Department's 
Vice Crime/Narcotics Section experienced. I know numerous 
mistakes as it relates to planning and decisionmaking occurred. 
Mistakes were made in every level of government. I am not here 
to point fingers. I am here to relate my story and my 
experiences in an attempt to ensure that other agencies do not 
make the same mistakes that we made prior to, during, and after 
Katrina.
    I would also like to say that I'm very proud of the members 
of the Vice Squad, Narcotics Section, and the other members who 
rallied with us to do rescues in the city of New Orleans.
    Thank you. I am now prepared to answer any questions.
    Chairman Collins. Thank you, Captain.
    Mr. Lokey, when you arrived in Baton Rouge on Saturday, you 
arrived amidst predictions for a catastrophic hurricane with 
enormous storm surges and the overtopping of the levees as a 
likely event. I recognize that FEMA is not the lead agency for 
search and rescue, but you do have Urban Search and Rescue 
Teams, and you do have an obligation to be the coordinator and 
to make sure that your State and local partners have what they 
need.
    In light of these predictions for a truly horrific 
hurricane to strike the city, I would think that FEMA would 
have tapped every possible resource, would have responded very 
quickly to requests from State and local agencies for 
assistance, and would have eagerly taken up other offers of 
qualified assistance. And yet that is not what seems to have 
happened, and that perplexes me.
    I want to ask you about two particular examples. If you 
would turn to Exhibit 6 \1\ in your book, this is a Louisiana 
form for State agencies to use to make requests for supplies, 
and I know that the staff has discussed this form with you. It 
shows that on Sunday, before landfall, the State asked for 
rubber rafts. It asked that these rubber rafts be delivered to 
New Orleans the next day, the day of landfall, to be used in 
rescue missions.
---------------------------------------------------------------------------
    \1\ Exhibit 6 appears in the Appendix on page 79.
---------------------------------------------------------------------------
    The Department of Wildlife and Fisheries has told our 
investigators that FEMA turned down that request, and indeed, 
you can see written on that document ``Request Denied.''
    It is puzzling to me, given the predictions for flooding, 
for the storm surge, for the overtopping of the levees, that 
FEMA wouldn't have said, ``Of course, we will get them to you 
instantly.''
    What happened in this case?
    Mr. Lokey. In this particular case, first of all, I first 
became aware of this when your staff showed me this. Literally 
hundreds of requests came through, many of which the level I 
was working, I did not know about. So on this particular one, I 
followed up with my staff.
    The request for 300 did come in to the State EOC. That 
request was turned into a request for 1,000 rubber boats. That 
was sent to our regional office in Denton, Texas, where most 
everything--the actual procurement and things like that were 
taking place.
    I am informed that a meeting took place there with the 
search-and-rescue people, the DOD, the Corps of Engineers, and 
the Coast Guard, where the decision was made that these rubber 
boats in the environment we were working in would not be useful 
with the debris and things like that. So the request was 
denied. More substantial boats were ordered, and although in 
lesser numbers, 20 Zodiacs and I believe 27 flat-bottomed boats 
were procured and sent in to use.
    Chairman Collins. Mr. LaCaze, let me ask you to respond to 
that because the request was initiated by your agency. Do you 
think it would have been helpful to have those rubber rafts?
    Colonel LaCaze. I think to us in the field, in the New 
Orleans area, the situation we were in, I believe that the 
rafts would have been beneficial, especially in the early 
stages, because in the situation we were in, we could have used 
the rubber rafts in tow with the small motorboats that we sent 
into the neighborhoods, and we could have loaded additional 
evacuees into the rafts and towed them.
    The other benefit of the rafts would have been that in some 
of the very shallow water areas, say 2-foot to 3-foot, 
officers, rescuers could have actually taken the rafts and 
walked alongside and pulled them into shallow water areas, up 
onto porches, for example, or very near or up into the doorways 
of homes where we could have loaded mobility-impaired people or 
sick people that could have been placed in those rafts. So they 
would have had some benefit to us, I think, especially in the 
early stages of the rescue.
    Chairman Collins. Mr. Lokey, I didn't know what Mr. LaCaze 
was going to say, but he just gave a very good reason why at 
least this initial version of the request should have been 
granted. But what troubles me is, Don't you all talk to one 
another? I mean, wouldn't this be a case if you thought that 
the State didn't really need this equipment, that you would 
have a conversation and try to figure out what assets are 
needed?
    Captain, from your testimony and other interviews, what 
strikes me is the utter lack of coordination on search-and-
rescue operations. It sounds like the New Orleans Police 
Department, your staff and officers, were operating all on 
their own and doing a great job, the best job that they could 
with search and rescue. But did you see coordination with the 
city, the rest of the city agencies, the State, FEMA, and the 
National Guard?
    Captain Bayard. No, ma'am, we did not actually get with 
FEMA until week four. Week three, we moved into the OEP at the 
Hyatt Hotel, but I did not actually meet with any member of 
FEMA until week four, and then we started doing secondary 
rescue.
    Chairman Collins. Mr. Lokey, the other example that I want 
to talk to you about was an offer from the Department of the 
Interior. Now, this was after landfall. The levees had 
breached. The city was 80 percent underwater, and the 
Department of the Interior says to FEMA, Hey, we are experts at 
search and rescue. We have a lot of experience. What is more, 
we can help you out on law and order, which was one of the 
reasons that FEMA pulled back its Search and Rescue Teams 
temporarily.
    The Department of the Interior offered 300 boats, 400 
trained law enforcement officers, 11 aircraft, and, in fact, in 
its response to our inquiry, the Department wrote that these 
were clearly the assets and skills that were precisely relevant 
in the post-Katrina environment.
    I know that you told the Committee that you were not aware 
of that offer either. Doesn't that suggest a systemic problem 
when you as the Federal coordinating official do not get word 
that these assets are available?
    Mr. Lokey. Well, yes, it does. And to back up, my report 
about the change in the order to the Zodiacs and the flat-
bottomed boats was just a report of what I was told what 
happened, not that I disagreed that they needed it.
    Communications and coordination was lacking. Preplanning 
was lacking. We were not prepared for this.
    Relative to the DOI request, I was not aware of that at the 
time. I have since talked with my staff, and no one was. Those 
resources certainly could have been. At minimum, that shows 
that we have a lot more work to do at the Federal level.
    I am sorry. I lost my train of thought. There was one other 
question you have about----
    Chairman Collins. I was just suggesting that when you get 
offers of trained personnel assets----
    Mr. Lokey. Oh, yes. If we had gotten it, we certainly would 
have used it. But, again, I mainly in my operations partnered 
up with Jeff Smith, the State coordinating officer. I made 
every effort, anything he asked for, to try to get. And I even 
talked with him when the first issue of boats came up after my 
first interview with your staff, and he was not aware of this. 
I can assure you, had he approached me, things might have been 
different.
    But, there was so much going on. We have a tremendous 
amount of work to do on this. There is no question.
    Chairman Collins. I appreciate your candid answer to that. 
My point is that we have a broken system. We have a system 
when, even when desperately needed, personnel and equipment are 
offered, we don't seem to be able to incorporate them into the 
response. And in the meantime, we have thousands of victims on 
the rooftops waiting to be rescued. We have first responders--
State, local, and Federal--doing their best, but going through 
the city with no maps to guide them in some cases and without 
coordination, so that you have rescuers from all different 
agencies literally bumping into one another, not dividing up 
the city in a logical way, not coordinating their efforts. And 
I want to come back to this. Mr. Lokey.
    Mr. Lokey. If I could add one other thing, and I could ask 
Wildlife and Fisheries to respond, because where we set up camp 
was at Metairie at Zephyr Field, and that is where plans were 
made on where to search for the whole area. And, that is where 
we partnered with them on Tuesday. Daily plans were done. 
Incident action plans were done on who would search where. And 
I thought there was representation from the Police Department 
there. The New Orleans Police was doing their search and rescue 
there. But we were making every effort, with the number of 
people that came in at Zephyr Field, to do that coordination. 
It wasn't that it wasn't taking place or that people weren't 
trying. But there was a lot of great efforts going on by a lot 
of people. But as an overall single command post controlling 
everything going on in Hurricane Katrina in Louisiana, no, 
ma'am, that did not exist.
    But we went to where the State asked us to go to work with 
them to do the unified command.
    Chairman Collins. But I think that shows some of the lack 
of coordination between the State and local agencies as well 
that the captain alluded to. I will come back to that issue.
    Senator Lieberman.
    Senator Lieberman. Thank you.
    Mr. Lokey, let me continue that line of questioning. I 
think in some sense you may have, in your own quiet response to 
Senator Collins, given us the bottom line when you said we were 
not prepared for this. And I take that to mean that FEMA was 
not prepared for Hurricane Katrina. And our responsibility here 
is to figure out why and what we can do together to make sure 
that the next time disaster strikes, natural or otherwise, we 
are better prepared.
    I want to clarify that you are the Operations Branch Chief 
of the Response Division at national FEMA.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. Which is to say that you are in charge 
of all operations, I suppose planning and implementation of the 
response to an emergency.
    Mr. Lokey. My specific responsibilities are the National 
Urban Search and Rescue Program, the National Disaster Medical 
System, the National Response Coordination Center. I do have a 
planning unit that was the--where Hurricane Pam was planned. 
But like in the Response Division, all the logistics and 
equipment and support and things come out of the logistics----
    Senator Lieberman. That is somewhere else.
    Mr. Lokey. Yes, that is someplace else
    Senator Lieberman. OK.
    Mr. Lokey. I am not overall of all operations.
    Senator Lieberman. Right. But am I right that you were 
asked to go to Baton Rouge to be the No. 1 person for FEMA in 
regard to Hurricane Katrina?
    Mr. Lokey. Yes, sir.
    Senator Lieberman. You have heard us talk about the 
Hurricane Pam fictional exercise, which FEMA sponsored and paid 
for. Were you aware of the Hurricane Pam exercise prior to the 
weekend before Katrina?
    Mr. Lokey. Yes, sir, I was. I assumed my job at 
headquarters in late April.
    Senator Lieberman. April 2005?
    Mr. Lokey. Of 2005, yes, sir.
    Senator Lieberman. OK.
    Mr. Lokey. And as I was coming up to speed on the various 
initiatives, I was briefed by my staff on the Hurricane Pam 
initiatives. My only direct involvement was on the July 
workshop in New Orleans, I was able to be there for the last 
day for the briefing from various working groups on, I think, 
specifically at that time on transportation and search and 
rescue where they were in the process.
    Senator Lieberman. As we go along today, I think we are 
going to want to ask you why to our eyes and ears, as we go on 
with this investigation, it seems that there was so little 
specific and tangible response to the deficiencies, not just in 
FEMA but State and local as well, that the Hurricane Pam 
exercise showed. In other words, we weren't ready for this. We 
weren't ready for Katrina at all levels of government. But I 
want to focus on having--well, let me ask you just real 
briefly: Did you take any specific action in your work in 
response to what you saw of the Hurricane Pam report?
    Mr. Lokey. Yes, sir, I did, and in hindsight, it obviously 
was not the right thing. One of the things, for example, we 
were briefed on was the locals were only 10 percent done with 
their planning for the use of buses for evacuation, and they 
told me they would need a Presidential declaration of emergency 
72 hours in advance to be able to pay for it.
    I went back to headquarters and sent a memo over to the 
Recovery Division where that declaration unit was housed, 
expressing this to get the discussion started. And also instead 
of making plans to do the buses myself, I went and worked on 
getting them more money so they could continue their planning. 
And so I worked to--because they had asked that--they had done 
a lot of good things in the Hurrican Pam process, and my main 
focus was trying to get continued money to do that. And then 
Hurricanes Dennis through before Katrina kind of wound us up, 
and we didn't do anything more than that.
    Senator Lieberman. Let me take you to August 27, 2 days 
before landfall. FEMA officials, including yourself, were e-
mailed certain sections of the southeast Louisiana catastrophic 
hurricane plan, the plan that came out of the Hurricane Pam 
exercise, by Sharon Blades. Could you identify Sharon Blades?
    Mr. Lokey. Sharon Blades works for me. She is part of our 
planning unit in the Response Division. She had been intimately 
involved, one of the lead staff working on the Hurricane Pam 
process.
    Senator Lieberman. Right. So did she circulate that at your 
request, or did she just find it and circulate it as a crisis 
reminder?
    Mr. Lokey. Well, it was kind of as a reminder because when 
I got tagged to be the--well, when Director Brown made the 
decision to send the ERT-N, the National Response Team, which 
the Blue Team was up and I was the FCO for that, on Saturday 
morning, and one of the things--and by that time, as the 
hurricane moved west, it became New Orleans and Louisiana were 
coming into the target area, I had asked that the contractors 
from IEM be embedded in Louisiana and in our NRCC to give 
technical advice to remind people what had been done through 
the planning.
    I carried with me several of the documents, and I don't 
want to take credit for good staff work. I wanted to get the 
word out, and Sharon did the appropriate thing to plan that. 
And on the airplane going down there, I thumbed through it and 
looked for things to--you tickle me on the things we need to be 
talking to the State about.
    Senator Lieberman. Don't you agree that by that time it was 
too late? In other words, the deficiencies that the Hurricane 
Pam exercise showed in FEMA would have required a response much 
earlier, training of your Search and Rescue Teams for water 
rescue, etc.?
    Mr. Lokey. Well, for overall system things to respond with, 
yes, sir, you are exactly right. As far as the prepositioning 
of assets and things like that, that was specifically 
challenging in Katrina because after it hit southern Florida 
and came out, the track had it going through Tallahassee. And 
then the track moved very rapidly west, and we were staging 
commodities and teams to respond to Alabama, Mississippi, and 
Louisiana. And that was why when I got there on Saturday night 
and got the briefing we activated the additional Urban Search 
and Rescue Teams. They would have been entirely--we never could 
have gotten them on time there. We put them on alert to move 
them in as quickly as possible after.
    Senator Lieberman. Let me read you from the Hurricane Pam 
plan's section on search and rescue, ``Parish resources in the 
most severely impacted areas will not be available for several 
weeks or even months, as they were not removed from the area 
prior to the storm.''
    My understanding from my staff in the pre-hearing interview 
that they had with you is that you indicated some awareness of 
that particular prediction in Pam, which is to say that the 
first responders locally would be overwhelmed by the flooding.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. Why was that? It certainly appears in 
the explicit wording of the Pam plan that there is a prediction 
that this kind of hurricane would in some sense drown--not 
literally, thank God, but would overwhelm the local first 
responders.
    Looking at the plan, in hindsight, knowing that it came out 
in January 2005, you arrived at FEMA in April 2005, it cries 
out for action at the Federal, State, and local level, which, 
unfortunately, did not happen.
    In the case of FEMA, it seems to me to clearly say that if 
this big one hits, the locals are simply not going to be able 
to handle it and that FEMA has got to get ready to come in with 
everything and take over.
    Am I reading it right? And if so, why didn't something more 
happen at FEMA national headquarters to get ready for it?
    Mr. Lokey. Well, let me say what I will express will be my 
opinions.
    Senator Lieberman. Please.
    Mr. Lokey. Not necessarily that of the Department. But 
before I came to headquarters, I was a Federal Coordinating 
Officer. What is ingrained in us is that the State is 
sovereign. We work for them. We partner up with them. And FEMA 
does not even have the authority to go in and take over. And so 
I did as I was trained and what I was used to doing, partnered 
up with the State, and made sure I met their objectives.
    I was able to review the Hurricane Pam things, like, for 
example--I am not sure exactly where it is, but there is a 
suggested 24 hours out what to have available. And it was four 
NDMS teams and two DMORT teams, and it was a pretty short list. 
Boats were not on that list.
    In my discussions with the State, the Coast Guard and the 
Fisheries folks were moving their boats to safe areas. I don't 
have boats. But I didn't get a request for boats.
    In hindsight--I mean, next time, sir, I will be before this 
Committee wondering why I spent so much money on things that 
were not needed.
    Senator Lieberman. Yes, there you go. I mean, looking at 
the Pam exercise, you are responsible for the Urban Search and 
Rescue Teams.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. Don't you agree that the Pam exercise 
really was a plea that the Urban Search and Rescue Teams have 
some water rescue capacities?
    Mr. Lokey. No, sir. I think the Urban Rescue Teams weren't 
even part of the Pam process. There is extremely robust water 
rescue capability in this country.
    Senator Lieberman. Within FEMA?
    Mr. Lokey. No, sir. FEMA does not have organic water rescue 
capability. We have found from experience our urban search-and-
rescue people occasionally, in doing their collapsed structure 
mission, do need to be prepared to work in a water environment. 
Subsequently, they have the safety gear. But to expand that 
program into a water rescue asset, we don't have enough funding 
to even do our structural collapse program as we would like.
    Senator Lieberman. So part of it was a lack of adequate 
funding.
    Mr. Lokey. Well, initially. That has always been considered 
that is a local and State responsibility. And with the time we 
could get there with teams to perform water rescue, all through 
the EMAC program.
    Senator Lieberman. The EMAC is the State mutual aid 
programs. So you called in a water rescue team, as I recall you 
mentioning in your opening statement, from California.
    Mr. Lokey. Yes.
    Senator Lieberman. But, obviously, it was not there early.
    Mr. Lokey. No, because what happened was when early in the 
game I was talking to Jeff Smith, especially when water became 
an issue, I was giving him advice from my experience in search 
and rescue of where through EMAC they could get robust water 
rescue capability. I suggested California. I found out a few 
hours later California had not signed the EMAC agreement. 
Fortunately, we have cooperative agreements with the eight main 
jurisdictions that are sponsors of Urban Search and Rescue 
Teams, which I worked for 2 years for California OES, Office of 
Emergency Services. Those are the jurisdictions that have eight 
California Swift Water teams. So we had a legal mechanism to 
bring those teams on board, pay them through FEMA, provide them 
the liability, and----
    Senator Lieberman. Right. When did they get there, do you 
know?
    Mr. Lokey. We have a detailed record of that. I believe 
they got there by Wednesday, but I am not sure. I provided your 
staff a timeline of when they were in.
    Senator Lieberman. Yes. Do you think FEMA should have its 
own in-house water rescue capacity?
    Mr. Lokey. I personally do not. I think that we ought to 
train our teams and better prepare them to work in a water 
environment so they can help as they did in this event. I do 
personally feel we should take the leadership, though, to help 
develop a national system of standards and training, and we can 
pay to move other teams around the country. That would be much 
more cost-effective than developing 28 Swift Water rescue teams 
within FEMA.
    Senator Lieberman. Madam Chairman, may I ask your 
indulgence to ask one related question to Captain Bayard? And 
it is also similar to what I just asked Mr. Lokey, and we will 
be asking other city officials this.
    Why after Pam's clear warnings, to the best of your 
knowledge, Captain, did the city barely have any watercraft to 
deploy for search-and-rescue missions? And why did neither the 
New Orleans Fire Department nor the Police Department, to the 
best of my knowledge--and you correct me if I am wrong--have 
any water rescue training before Katrina made landfall?
    Captain Bayard. Senator Lieberman, I cannot answer that one 
way or the other. I was not involved in the exercise with 
Hurricane Pam, and I know that there are requests that went up 
about boats.
    Senator Lieberman. Prior to Katrina?
    Captain Bayard. Prior to Katrina, yes, sir.
    Senator Lieberman. From the Fire Department, Police 
Department, or both?
    Captain Bayard. I think from both agencies, sir. I know for 
sure from the Police Department.
    Senator Lieberman. Up to the city government?
    Captain Bayard. It went up through the chain of command, 
yes, sir.
    Senator Lieberman. And, of course, it was not responded to 
affirmatively in a timely way.
    Captain Bayard. Correct.
    Senator Lieberman. Thank you. Thanks, Madam Chairman.
    Chairman Collins. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    We have much to learn about this tragedy. Is America, today 
at this moment this afternoon, better prepared should we have 
the misfortune of a similar incident? In other words, are we 
learning from the past? Have we implemented correct steps as 
best we can? More is to be done, but are we in a better state 
than we were when this happened? Just a simple few remarks from 
each of you. Mr. Lokey.
    Mr. Lokey. I think we are because we learned some hard 
lessons that have already been instituted. And as I mentioned 
earlier, our Urban Rescue Teams are as we speak in Miami 
working on making things better and doing the things to 
implement what we learned so we don't make the same mistakes 
twice.
    Senator Warner. Good.
    General Veillon. Senator Warner, thank you for that 
question. We are better. Throughout the Katrina rescue effort, 
there was unity of efforts by all organizations. We were all 
focused on the same thing: Rescuing people and taking them to 
safety. We did not have command and control, one command and 
control cell that controlled this whole effort. But there are a 
lot of positive lessons learned from the efforts of New 
Orleans, and I know they will all be instituted by the coming 
hurricane season.
    Senator Warner. Good. Thank you. Colonel LaCaze.
    Colonel LaCaze. Yes, sir, I think we are. I know certainly 
our agency learned a great deal from it. We have effected some 
changes and improvements already and have lots of plans to do 
additional planning. And for the rest of the country, I will 
say this: If we ever have to respond to another State in a 
similar situation the way those States responded to us, I think 
we would bring a very effective and experienced and useful 
force to their assistance. Within our State and with other 
groups, we are already getting requests to come speak at 
conferences and at meetings and things to share the knowledge 
that we have. So in that way, I think we are going to go out, 
go forward to a lot of the rest of the country and tell our 
story and share our experience so they can benefit and make 
plans to be better prepared for these things.
    Senator Warner. Thank you. Captain Bayard.
    Captain Bayard. Senator Warner, we definitely learned a 
lot. Right now we are going through a lot of training with the 
Wildlife and Fisheries as far as boat and rescue. We are trying 
to get a US&R team established on the Police Department because 
we already have on-the-job training, I guess you would say, 
through this one. Even though we had no experience, we did 
search and rescue. Then we did secondary search and rescue with 
breaching homes and all. So we got a lot of experience, and we 
are going to try to get better.
    The Department has implemented training as far as 
leadership training. We are getting incident command training. 
I spoke with the superintendent prior to coming up here, and 
this training is being slated right now. DEA and FBI are doing 
the leadership training on behalf of the New Orleans Police 
Department, and the incident command training, to my 
understanding, will be coming from the FBI as well.
    Senator Warner. Thank you.
    Madam Chairman, and I say to the Ranking Member, it is very 
important that we have had these series of hearings, and I 
thank the Chairman. And I think they have been very productive.
    Chairman Collins. Thank you.
    General, I want to explore with you an issue of 
prepositioning assets. I recognize that hindsight is always 20/
20, but the fact is that FEMA wasn't the only agency that 
turned down what at least today appeared to be reasonable 
requests.
    Our Committee is informed that the Chief of Operations, now 
Superintendent of the New Orleans Police Department, made a 
request of the National Guard Commander at Jackson Barracks for 
five high-water vehicles and five boats to be pre-staged at 
each of the eight police district stations around the city so 
that the New Orleans Police Department could deploy immediately 
after the storm.
    Are you aware that, in fact, Superintendent Riley was told 
that the National Guard felt that most of the assets should 
stay at Jackson Barracks, which subsequently flooded, and that, 
in fact, no boats were pre-staged at all and high-water 
vehicles, rather than being pre-staged at all eight stations, 
were placed at only three or four?
    General Veillon. Madam Chairman, I am not aware of that 
specific request. We placed high-water vehicles as well as 
boats at Jackson Barracks in order to be close to those people 
that may need us. We did lose some high-water vehicles due to 
the water, but those vehicles were quickly put back into 
commission and used after the floodwaters began to recede.
    But specifically, ma'am, I am not aware of the request from 
the New Orleans Police Department.
    Chairman Collins. Well, given that Jackson Barracks was in 
the flood zone, did anyone express concern that assets might be 
lost due to flooding? And I want to follow up on your previous 
answer by pointing out that the Committee is informed that 20 
high-water vehicles were out of commission due to flooding. 
Those are 20 vehicles that would have been very helpful in 
rescuing people and bringing them out of the city.
    General Veillon. Yes, ma'am. It was a decision made that we 
should have assets at Jackson Barracks, our headquarters, in 
preparation for this storm. The catastrophic nature of the 
floods did have an impact on our prepositioned equipment. We 
have always positioned boats and high-water vehicles at Jackson 
Barracks for all hurricanes and have always had better luck. 
When the levees broke and Jackson Barracks flooded, we lost a 
lot of that equipment initially.
    So, yes, ma'am, we were aware of the relative danger and 
possibility of loss, but we believed it was the right place for 
the equipment.
    Chairman Collins. Mr. LaCaze, we have heard that you 
experienced difficulty in getting the National Guard to allow 
you to use buses that would have assisted in the evacuation of 
patients from Tulane Medical Center. Could you tell us about 
that incident?
    Colonel LaCaze. Yes, ma'am. The Wednesday following the 
hurricane, we were asked that morning to go to the Tulane 
Medical Center to evacuate patients from that hospital and also 
if we would have the ability to evacuate some from Charity 
also. So we deployed into that area and began moving people 
from the hospital. We were met on scene by some people from the 
Shreveport Fire Department and some Shreveport medical first 
responder units that explained to us that they had a triage 
location set up in a small parking lot just across the street. 
This is at Loyola and Perdido. Just across the street from the 
Holiday Inn Hotel was the first dry ground that you could get 
to coming from Tulane Medical Center. And the plan was for us 
to take our boats, go to the hospital, move the people from the 
hospital to the parking lot where there would be ambulances 
that would be arriving to take the patients from there and to 
evacuate them out of the city.
    So we started the evacuation, and in just a little while we 
had to stop with only about 20 patients because the parking lot 
area, that was about all they could hold at one time, and we 
were not getting the ambulances in as scheduled. So we held up 
on further evacuation and turned our efforts to just working in 
the city area evacuating people and assisting people who were 
trying to get out while we waited for the ambulances so we 
could resume the hospital evacuation.
    It came to my attention sometime that afternoon that there 
were about--I think it was five buses that were parked on up 
near the interstate, just up the street, actually, from where 
we were. Our radio systems were very poor. You would get 
communication to the Emergency Operations Center in Baton Rouge 
occasionally, about 50 percent or less of the time, and I 
relayed a request and advised that there were buses that were 
on location here, they were very near to where we were, in the 
absence of the ambulances would it be possible to get the 
buses, to place the patients on board, and to move them out 
that way.
    The initial response that we got back from Baton Rouge EOC 
was that that was approved to go send someone up there and get 
the buses. We sent one of the firemen, the Shreveport firemen. 
There was a 4-wheeler that they were using to run around in the 
area. It went up, contacted, and there were some National 
Guardsmen who had the buses, had a security watch on the buses. 
And I assume he made contact with them. He went up and talked 
to them and told them that we had a request and they had been 
authorized.
    He came back to me and said that they would need to know 
who had authorized that, who was requesting it, and could I put 
that in writing. So I made a note with the authorization from 
the EOC, I think it was Colonel Smalley or Colonel Smith. I 
can't recall who the person in the EOC that had advised, that 
had authorized it. I told them who I was and signed my name to 
it and sent it.
    He took the message and went up. He stayed a few minutes. 
He came back and said, ``They want you to come up there.'' So I 
got on the 4-wheeler with him, and we rode up to the Guardsmen 
who were watching the buses, and I said, ``We really need the 
buses.'' And the senior sergeant there advised that they did 
not have the authorization and they, therefore, couldn't 
release the buses. And I said, ``Well, let me try to talk to 
somebody. Do you have something that beats the radio that I 
have that is not working very well?'' They provided a cell 
phone, and I tried to make a phone call on the cell phone but 
couldn't get through on it either. It wasn't really working any 
better than the radio was. And just couldn't get through and 
couldn't talk--at that point communications were virtually lost 
again. And with that, he just said, ``I am sorry. I know you 
and I would love to be able to. I just can't do it without the 
authorization.'' And I had asked, ``Well, what is the purpose 
of the buses? What are they doing here?'' And he said, ``These 
are for special needs people.''
    Chairman Collins. What are patients?
    Colonel LaCaze. And what did I have down the street? But I 
said, ``Well, I understand the position you are in,'' and I 
knew that it wasn't any use to pursue it at that level with him 
because he had his orders and I had my responsibility and my 
request.
    So at that point we went back, and since we still were not 
getting ambulances and were not--and finally did, but not in 
any adequate numbers--I think there were five. That was when I 
made the decision to go ahead and load the patients in our 
pick-up trucks and load the equipment, the wheelchairs, and 
stretchers and things like that into the boats that we were 
trailering. After we got out of the water and got all the 
patients out of the hospital, we trailered our boats, loaded 
the people in the trucks, put the equipment on board the boats, 
and went to the causeway.
    Chairman Collins. That sounds like bureaucracy at its 
worst. Here you are trying to evacuate patients. There are five 
empty buses available. And instead, you are asked to fill out 
paperwork, you cannot get the authorization, so you end up 
loading patients into pick-up trucks and other vehicles, which 
is much slower and delays the evacuation. Is that a fair 
assessment?
    Colonel LaCaze. Yes, ma'am, that is a fair assessment. And 
I attribute it to the communication problem.
    Chairman Collins. Did you see any evidence, as you are 
attempting to evacuate hospitals, of any kind of coordination 
among Federal, State, and local agencies to deal with the 
problems of the need to evacuate hospitals?
    Colonel LaCaze. Helicopters were doing air evacuations very 
rapidly and very regularly from the hospitals, but at the 
ground level where we were, the situation that I have described 
to you there was the kind of things that we were encountering.
    Chairman Collins. So on the ground there was no 
coordination that you could see.
    Colonel LaCaze. Not at that point. The only coordination 
that I was able to see was at least the Shreveport Fire 
Department and medical service personnel who had been tasked to 
that assignment. They were on scene and in place, as were we. 
But as far as the coordination needed for the ground 
transportation, we ran into a problem there.
    Chairman Collins. Thank you.
    Senator Lieberman. Thanks again, Madam Chairman. Just let 
me continue on the question of red tape in the middle of the 
crisis.
    I know that our staffs have received testimony from 
witnesses that indicated--and here, again, Colonel LaCaze, I am 
going to ask you--that when the Louisiana Department of 
Wildlife and Fisheries went to make certain EMAC requests, 
which I take it to be requests from other States who could 
provide assistance, you also met with some red tape about 
whether FEMA had approved a particular State agency to deploy 
specifically to Louisiana. Is that correct? Did you have 
problems with red tape in that regard?
    Colonel LaCaze. To some degree, sir. I know that Texas 
Parks and Wildlife was on scene--by Wednesday morning they had 
arrived. The remaining States that I mentioned showed up in the 
following days. But it did seem in all honesty that it was a 
little bit slow. Help was slow in coming. I think that anyone 
that was involved there and into the area immediately after 
impact will tell you that our feeling was that help was slow in 
coming at those levels.
    Senator Lieberman. And was it your impression that was 
because of some red tape within the FEMA system or just that 
FEMA had not been adequately prepared as the hurricane was 
coming to get people in there quickly?
    Colonel LaCaze. The information that I was getting was 
coming from the Office of Emergency Preparedness in Baton 
Rouge, and what the Wildlife and Fisheries personnel were 
relaying to me there was that requests were bogged down in the 
process, in the pipe, so to speak.
    Senator Lieberman. Mr. Lokey, when you were there, were you 
aware that there was a logjam in terms of the EMAC request? 
Again, I'm talking about an EMAC request being a request from 
Louisiana for help from other States with the kinds of 
capacities that they needed.
    Mr. Lokey. Well, EMAC is strictly a state-to-state mutual 
aid operation. I do not believe FEMA has any dog in that fight, 
if you will.
    I do remember delays of people not wanting to respond 
because they didn't have the right signature to assure they 
were covered under the EMAC compact, but that is strictly 
state-to-state.
    Senator Lieberman. In any case, just to clarify, am I right 
that wouldn't come through your division? Or would it?
    Mr. Lokey. No, sir, that would be strictly state-to-state. 
Now, we do have an EMAC representative at the National Response 
Coordination Center that helps coordinate things like that. But 
I do not believe there is any part of the FEMA approval process 
in an EMAC request.
    Senator Lieberman. So, therefore, your answer is, contrary 
to what the Colonel said, who felt that FEMA was part of 
holding up those----
    Mr. Lokey. I do not believe FEMA was part of holding that 
up.
    Senator Lieberman. OK. Let me go back to a baseline 
question. General Veillon, as you testified earlier, you began 
doing your water rescue on Monday, August 29, the day of 
landfall. I want to ask you a couple of questions. At what 
point did you realize that day that a major water rescue effort 
would be required? And as part of that, when did you know that 
any one of the levees, the significant levees around New 
Orleans, had been broken?
    General Veillon. Yes, sir, thank you. On Monday morning, 
mid-morning, around 9:30, the water rapidly rose with a 
significant current at Jackson Barracks.
    Senator Lieberman. Which is where you were.
    General Veillon. Yes, sir, which is where I was. From past 
experience with hurricanes and floods, charts, I expected some 
water at Jackson Barracks. This was different in how fast it 
rose and what a current it had. So it was significantly deep in 
a very short time.
    I learned shortly thereafter, maybe 30 minutes, listening 
to the AM radio station in New Orleans, WWL, which was 
announcing that the Industrial levee had broke.
    Senator Lieberman. As far as you could tell, that 
announcement was made based on something the radio station had 
heard from a reporter or people in the area.
    General Veillon. Yes, sir. I am not sure how they came to 
that information.
    Senator Lieberman. But it turned out to be accurate.
    General Veillon. Yes, sir, it was accurate, and about an 
hour after that, the Emergency Operations Center in Baton Rouge 
advised us at Jackson Barracks that, in fact, the Industrial 
Canal had a levee breach.
    Senator Lieberman. So that would be what time?
    General Veillon. That would have been in a sequence of 
maybe 9:30 the water rose; 10, 10:30, the radio announces it; 
11, 11:30, OEP advises.
    Senator Lieberman. OK. Colonel LaCaze, when did you first 
learn that the levees had been broken?
    Colonel LaCaze. We had heard apparently the same radio 
broadcast from the public radio stations that morning around 9 
o'clock, that they suspected that there were levee breaches. I 
did not get true confirmation of that until Tuesday morning, 
but we had made observation during the night Monday night and 
in the wee hours of Tuesday of fluctuation in the water levels 
that made us suspect that we had a levee breach.
    Senator Lieberman. Although, am I right, you were already 
out there on Monday afternoon?
    Colonel LaCaze. Yes, sir.
    Senator Lieberman. Captain, when did you hear about any one 
of the levees breaking?
    Captain Bayard. It was Monday morning. We were able to 
speak with Communications Section, and the Lower 9th Ward was 
inundated with 911 calls, so we knew we had a problem. And the 
levee actually breached in two locations--one right at Jordan 
Avenue, and the second, the major break, was at Pria.
    Senator Lieberman. And which levee was this, just for the 
record?
    Captain Bayard. Industrial Canal levee, sir.
    Senator Lieberman. Thank you.
    Mr. Lokey, at the State Emergency Operations Center, when 
did you first learn that the levees had broken?
    Mr. Lokey. Well, we were getting unsubstantiated reports 
starting Monday about the same time because I was right next to 
Colonel Smith in the Emergency Operations Center. I got 
confirmation with the eyes-on conference call I had with Marty 
Bahamonde, who had flown around in a Coast Guard helicopter.
    Senator Lieberman. We have heard from him. Right.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. And did you then communicate that 
information to FEMA in Washington?
    Mr. Lokey. Yes, sir. Well, the conference call with Marty 
included my chain of command, and so we all got it at the same 
time.
    Senator Lieberman. And that was, as I recall, later in the 
day.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. More specifically, but not to the 
minute, it was more like early evening, am I right? Or later 
afternoon?
    Mr. Lokey. It was later in the afternoon, and I was with 
Jeff Smith, and we were trying to get reports. The Corps of 
Engineers was going out to inspect, and we were getting all 
sorts of things and seeing things on CNN.
    Senator Lieberman. Mr. Lokey, while I am directing a 
question to you, I want to come back to something I said in my 
opening statement, which is based on Exhibit 12.\1\ It is a 
report from the Homeland Security Operations Center dated 
Thursday, September 1, 2005. And it states that FEMA Search and 
Rescue Teams stopped operations until the National Guard could 
provide adequate security for them. Explain first why that 
happened because my understanding is that the rest of the 
Search and Rescue Teams had continued in their work.
---------------------------------------------------------------------------
    \1\ Exhibit 12 appears in the Appendix on page 80.
---------------------------------------------------------------------------
    Mr. Lokey. I followed up on this, even the discussions 
today, with members of our Incident Support Team on the exact 
timing of this. Monday night was the time the rumors were 
abounding about the breakdown of law and order and things like 
that.
    Senator Lieberman. The very first night.
    Mr. Lokey. Yes, sir. And some of our rescue teams had even 
heard gunshots, although no fire was directed at them.
    Search and rescue operations never totally stopped, and 
FEMA did not pull out. What occurred was, according to my folks 
who were on scene, that the unified command of the Coast Guard 
and the National Guard and the folks working out of Metairie 
pulled back in to make a decision on exactly what was happening 
and how to get protection for our forces in their boats.
    Senator Lieberman. Basically, they pulled back into 
temporary headquarters.
    Mr. Lokey. Well, into their command posts at Zephyr Field. 
Some of the assets that were in the field were diverted to 
neighborhoods they knew were safe. As soon as they identified 
where they could get law enforcement officers--and this was in 
coordination--I understand that Jefferson County Parish law 
enforcement was there. As soon as they got law enforcement 
officers to put in the boats to protect the people, they were 
back in the water again doing rescues.
    Senator Lieberman. So how long was that, would you say?
    Mr. Lokey. I believe that they pulled back in Monday 
midday, and they launched again early Tuesday morning when they 
got the law enforcement support.
    Senator Lieberman. OK. Now, there is a confusion here 
because in Exhibit 12 there is a reference to Thursday, 
September 1, later in the week, when the Search and Rescue 
Teams stopped operations.
    Mr. Lokey. Well, if I remember correctly, it was September 
1.
    Senator Lieberman. Yes, that is the Thursday.
    Mr. Lokey. Yes, that was--well, this is probably a later 
report. But by the time it got out from us--when I had heard 
that they had ceased operations--because the decision was made 
in the field. The decision to protect your forces I leave to my 
people managing in the field. When I got the word that they had 
pulled back because of this and finally made touch with them, 
they had already solved it and were working on their plans to 
get back with law enforcement people as soon as they could get 
that in the water.
    So I am pretty confident that the event that spawned this 
was the rumors from August 31 in the evening, and then the 
morning of September 1 was the day they----
    Senator Lieberman. That would have been Tuesday and--OK, 
Wednesday and Thursday.
    Mr. Lokey. Well, they stopped midday--I would have to check 
this. The night of August 31--September 1 was when they ceased 
until they got the law enforcement and launched again September 
2, I believe. But they did not pull out.
    Senator Lieberman. They just pulled back.
    Mr. Lokey. They redirected in other places, and they did 
not go into the hazardous area until they ascertained exactly 
what the threat was and were able to get law enforcement people 
to accompany them.
    Senator Lieberman. General, to what extent did disorder 
inhibit search and rescue?
    General Veillon. Senator, there was probably a rumor an 
hour about snipers and other things going on in the city. The 
National Guard, we did not stop our rescue efforts for any 
security issue. It is my experience of Katrina that the 
National Guard did not experience security concerns. There were 
a lot of rumors of issues, but we continued our operations and 
did not experience any problems.
    Senator Lieberman. OK. My time is up. Thank you.
    Chairman Collins. Thank you.
    Captain, it is my understanding that you have been with the 
New Orleans Police Department for some 30 years. Is that 
correct?
    Captain Bayard. Yes, ma'am, it is.
    Chairman Collins. So during that time, you have undoubtedly 
been involved in preparations for other hurricanes. Could you 
give the Committee some comparison on the preparation for 
Hurricane Katrina versus other hurricanes during that 30 years?
    Captain Bayard. Well, for previous hurricanes, again, we 
would call people in early, just like we did for this one. We 
would go over the plan, make sure everybody understood what the 
plan was. Then we would start having--we would disperse food, 
water, everybody would fill fuel tanks up in their cars, just 
like we pretty much did for this one.
    We would have some military vehicles staged at stations at 
the Mars Street compound where myself and the TAC teams were 
staged. Each district always had at least a Hummer or one truck 
at the station houses in the previous storms in my 30 years.
    Chairman Collins. But that did not happen in this case.
    Captain Bayard. We didn't have any at Mars Street, and we 
pulled out of Mars Street probably 7, 8 o'clock that night to 
go to the hotels and then go patrol until the winds got up. So 
we pretty much planned just like we do for any other storm.
    Chairman Collins. Were the plans more extensive for 
Hurricane Katrina?
    Captain Bayard. No, ma'am.
    Chairman Collins. Were they less or just similar?
    Captain Bayard. I would say pretty much the same.
    Chairman Collins. Pretty much the same. So even though this 
was a hurricane that was expected to be a far stronger 
hurricane, you did not see more robust preparations. Is that 
fair?
    Captain Bayard. Yes, ma'am. I did not experience that.
    Chairman Collins. It is my understanding that the city has 
a mobile command center. Was that brought to the casino where 
you set up operations?
    Captain Bayard. No, ma'am, it is not. It is a tractor-
trailer, and it was stationed at Elysian Fields or North Miro 
in the fire station, and it was moved. And I found out later on 
that it was moved to a safe haven in Algiers and that it is 
currently being used as a fire station by Holy Cross High 
School on Renee Street below the Industrial Canal. And our two 
mobile command posts were--we did not know where they were 
either. They didn't come into play until after, I think, like 
the third week.
    Chairman Collins. Did that hinder your efforts?
    Captain Bayard. We were trying to coordinate everything off 
two picnic tables and chairs, and when I ran into the special 
forces group, we went and got plywood and two-by-fours, and 
then they built a little area, and that was the Incident 
Commander Center made out of plywood and two-by-fours, and that 
is where we worked.
    Chairman Collins. Some have said that if the physical 
communications network had not been devastated, the response to 
Hurricane Katrina would have been far better and a lot of the 
problems that we saw would not have occurred. And there is no 
doubt that if people's cell phones and radios are working, 
obviously communication is a lot easier.
    But in your report, you present a far broader indictment of 
what went wrong. I want to refer to Exhibit 1,\1\ which is a 
memo that you wrote to Deputy Chief Steven Nicholas. Could you 
read the first paragraph under ``Summary and Recommendations'' 
for us?
---------------------------------------------------------------------------
    \1\ Exhibit 1 appears in the Appendix on page 73.
---------------------------------------------------------------------------
    Captain Bayard. It says, ``The Office of Emergency 
Preparedness needs to be revamped. If their role is to have us 
prepared to handle a disaster such as this, they failed. They 
lacked a plan, did not provide the necessary equipment, 
provided no direction or leadership, did not coordinate or 
attempt to have commanders of field operations coordinate with 
any State or Federal agency, etc. We really need to take a 
long, hard look at this section.''
    Chairman Collins. Can you tell us how this report came 
about? Was it an after-action review?
    Captain Bayard. Yes, ma'am. It was an after-action summary. 
It was submitted on October 16, 2005, which is a little over a 
month after the storm had impacted New Orleans.
    Chairman Collins. So does it remain your judgment that it 
was a lack of planning, direction, and leadership that were 
responsible for the poor response?
    Captain Bayard. Yes, ma'am. I read the mission statement. I 
gave it to the investigators, to you all, and I felt, based off 
of what that mission statement is, that they should have had us 
better prepared for this storm, and not only this, but any 
other storm that's coming. They were supposed to be 
coordinating with State, local, and Federal agencies. They were 
supposed to have equipment staged for us, things along those 
lines, and that didn't happen.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Mr. Lokey, I am 
going to come back to you. You happen to be the guy from FEMA 
here today, so you are naturally getting a lot of questions, 
and because we are focused on the Federal role, although we are 
interested, obviously, and concerned about State and local 
preparedness too. We had all of these warnings that built up 
over the years. We have the specific warnings contained in the 
Hurricane Pam report and plan, which showed in a test case of 
what turned out to be, thank God, worse than Katrina, that 
locals were overwhelmed, they could not handle it.
    We heard you say earlier that you wish you had done more 
before to respond to the PAM report. You came in April. You 
were not there for a long time, and I can only ask you this 
from your perspective; we are going to have other people 
testify from FEMA as this goes on--and a lot of this, we are 
finding memos, and we are asking you questions about memos. But 
let's be honest about this, we were all watching television, 
and Max Mayfield was on TV Thursday and Friday, telling us this 
is a Category 4 or 5 storm. So neon lights are flashing saying, 
this is the big one. And I do not see within FEMA, even at that 
point, acknowledging that there was not enough earlier reaction 
to Pam, that somebody there said, ``Hey, this is it. Pam warned 
us the State and local people are going to be overwhelmed. The 
levees are going to break. We have to mobilize everything we 
have to get in there as quickly as possible.''
    I do not see that it happened. I see that it happened as 
time went on, but I do not see that it happened, for instance, 
that weekend. Am I right or wrong?
    Mr. Lokey. Yes, sir. We certainly did not mobilize 
everything we had. We did mobilize more than we had ever 
mobilized before.
    Senator Lieberman. In advance or afterward?
    Mr. Lokey. In advance. We had a number of urban rescue 
teams, a number of National Disaster Medical Teams, the amount 
of commodities that were staged, and literally, they were 
spread from Florida through Texas to respond. But it certainly 
was not everything we had, but, again, our challenge was that 
this was a huge storm, and Mississippi took a terrible brunt of 
it also. Alabama took a brunt of it. And just with what we had 
available, in hindsight, yes, we should have put more teams in 
and brought them in.
    Senator Lieberman. How many search-and-rescue teams could 
you have brought into the Gulf Coast or New Orleans?
    Mr. Lokey. Well, theoretically, I could have brought 28 of 
them in, but we had a bunch of them on alert. We had two teams 
in Mississippi and three teams in Shreveport, and then when the 
storm--again, when I got there Saturday, the first thing I did 
was call my urban rescue people and put a bunch of more teams, 
I think five additional teams, on alert for quick response.
    Senator Lieberman. Looking back, you said you wish that 
over that weekend you had activated more of those teams to come 
in.
    Mr. Lokey. Yes, sir.
    Senator Lieberman. Because of the scope of it. How about 
Monday when you found out pretty clearly from people on the 
scene that the levees had broken? So now the nightmare, which 
had been predicted and could be reasonably foreseen over the 
weekend with all the weather forecasts and, incidentally, some 
e-mail traffic within FEMA and the Department of Homeland 
Security, becomes real. The General and others can verify this. 
What should have happened then? For instance, looking back, do 
you wish that you had immediately notified people in Washington 
that the levees had broken, or do you think that they knew 
about it?
    Mr. Lokey. Well, they had some of the same information I 
did. They might have even had more because communications were 
so bad that even my chain of command was constantly on me that 
they could not get me on the phone because phone lines were 
saturated.
    Senator Lieberman. From Washington?
    Mr. Lokey. From Washington, yes, sir.
    Senator Lieberman. So where do you think they might have 
gotten the information, from public sources?
    Mr. Lokey. Watching CNN because the media was out right 
away, showing those pictures of not only the problems that were 
developing at the Superdome and at the Convention Center, but 
the rescues, and I was scrambling from where I was to move 
everything under my control and to advise the State on where 
they could get additional water assets, and I had discussions 
with Under Secretary Brown that although it was not our policy, 
we were putting our people in the water, and we would make 
plans with the State, if they would provide the boats, we would 
put the people in them. And then we got the California teams 
in.
    Senator Lieberman. When did you have that conversation with 
Under Secretary Brown?
    Mr. Lokey. Monday and Tuesday.
    Senator Lieberman. Monday afternoon or evening?
    Mr. Lokey. Well, Monday afternoon. Mr. Brown did not get 
there until Monday afternoon.
    Senator Lieberman. Correct. This was face to face?
    Mr. Lokey. Yes, sir. We already decided that because the 
teams were appropriately equipped and appropriately prepared, 
and these firefighters, although water rescue was not their 
mission, these are some of the best rescue people in the world, 
and we certainly knew that----
    Senator Lieberman. I have to tell you, I applaud that 
decision. Even though they were not specifically trained, as I 
said before, they fall under the category of heroes because 
they just used their brains and their guts and saved an awful 
lot of lives.
    Mr. Lokey. Yes, sir. They improvised and made it work.
    Senator Lieberman. Yes, absolutely.
    I wanted to ask just one general question, and again, this 
is about search and rescue. We are going to do a separate 
hearing on communications. But how much did the communications 
failure hurt the search-and-rescue efforts? Any of you want to 
reflect a little bit on what happened? Captain Bayard.
    Captain Bayard. Well, Senator, when we didn't have 
communication, it means we couldn't get real good intelligence 
back from the fields, and without communications, we couldn't 
coordinate with Wildlife and Fisheries, with the military, and 
things along those lines. So communication is vital in a time 
of crisis. If we cannot communicate, we can't coordinate, and 
that's exactly what happened here.
    Senator Lieberman. Right. Colonel LaCaze.
    Colonel LaCaze. Yes, sir, I would concur with that. You 
have to have communication, not only among the rescuers within 
the teams that are out there affecting the rescues so they can 
help each other, but all the way up the chain of command, to be 
able to provide information as to how many people we have, what 
kind of condition they are in, the medical assistance and 
transport we need, the food, water supplies that we need. All 
of that information has to be relayed. And when you have the 
breakdown of communications, the very lifeblood of the whole 
search-and-rescue operation is severely cut back.
    Senator Lieberman. General, let me ask the question a 
little bit differently, which is: How manageable is the task of 
providing a sustainable communications system in a Katrina-like 
disaster? In other words, obviously, the system that existed 
was out. Is it just a question of having the will and the money 
to buy the system, to get one that stays in, that continues to 
work?
    General Veillon. What we had primarily was 800 megahertz 
radio.
    Senator Lieberman. Right.
    General Veillon. Where we communicated from the Superdome 
to Baton Rouge via radio. That radio was saturated, the 
frequencies, with all agencies trying to operate. We also used 
satellite phones, and they became saturated. Blackberries 
served a good purpose, where we did have e-mail capability.
    Senator Lieberman. Interesting.
    General Veillon. The National Guard possesses some 
communications assets unique to the military, radio pallets 
loaded in the back of a Humvee. We have a forward air control 
unit that has that capability, where we forward deployed those 
units to give us feedback.
    What we need for the future is a communications package 
that has interoperability, that we can talk to everybody at 
this table, as well as a surge capability, that when everybody 
comes up on the frequency, the system can handle that.
    So we had communications, but it was saturated.
    Senator Lieberman. As far as you know, does that kind of 
system exist? In other words, if we decided we want to buy it 
and give you the resources to buy it, I presume you could find 
it, it does not have to be developed.
    General Veillon. Sir, in this country, I presume it does 
exist. I am not an expert in that, but that is what I would 
think where we need to go.
    Senator Lieberman. One of the questions we are going to 
look at in another hearing is the sequence of events and 
decisions that were made about when to deploy the military more 
broadly than the National Guard. One of the questions I know 
will be whether the military, existing as it does and preparing 
as it does for combat situations, would have brought with it, 
if it had been sent in early, the kind of separate 
communications system that would have withstood the pressures 
of the situation on the ground? Do you know?
    General Veillon. Well, sir, the Iwo Jima arrived with a 
vast amount of communications capability. It did not--by that 
time that the Iwo Jima was in place----
    Senator Lieberman. When did it get there? I have forgotten.
    General Veillon. Sir, as I recall, it would have been about 
Saturday after the storm.
    Senator Lieberman. Right.
    General Veillon. By that point, most of the rescue and 
evacuation of the Superdome and the Convention Center had taken 
place. We were more into a hasty search mode.
    Senator Lieberman. Right, and there was less demand on the 
system.
    General Veillon. Yes, sir. The peak had passed.
    Senator Lieberman. Right, thank you.
    Mr. Lokey. If I may, just to let you know what we are doing 
to inprove that, we got caught up in the communications 
problems. But we have been working with the Northern Command, 
which is the major military group we work with for military 
support to civilian authorities, in looking at what we're 
calling capability packages to predefine the capabilities they 
may have that are available to match up with what our potential 
needs are, so the time it takes for us to develop a scope of 
work and the exact needs can be shortened. We have been working 
with them on that, not only for communications packages, but 
also for medical capability, air capability, and ground 
transportation capability.
    Senator Lieberman. That is very reassuring because the 
poignant moment that you describe, where your superiors in 
Washington are having trouble contacting you as the chief FEMA 
person on the scene in Louisiana, is a moment that should never 
come again. I mean, you cannot imagine, if I may use the handy 
example, that General Abizaid at CENTCOM Headquarters in Qatar 
would have trouble getting General Casey in Baghdad. It would 
not happen, and it should not have happened in your case.
    Mr. Lokey. And one thing we have done also, that the 
availability to us of what we have now purchased as a result of 
Katrina, of additional satellite phones, and also for the ERT-
Ns, the two National Response Teams, we are developing 
communications packages and caches for them. We are doing 
training that we were not able to do last year, and we are 
trying to make things better so something like this won't 
happen again, sir.
    Senator Lieberman. Appreciate that. Thank you.
    Chairman Collins. Thank you.
    I want to thank each of you for testifying today and for 
your cooperation with the Committee. As I listened to each of 
you testify, I was reminded of a phrase from the 9/11 
Commission's report. When the Commission described ``good 
people straining against bad structures,'' and particularly 
with the Lieutenant Colonel and the Captain's recitation of how 
they had to get around bureaucracy, or a lack of leadership and 
direction, a lack of planning, and be very innovative. I thank 
all four of you and your teams for all that you did to help the 
victims of Katrina. But good people should not have to strain 
against bad systems or inadequate structures, and that is one 
of the things that we want to help recommend remedies for.
    I was also struck once again, as I have been throughout 
this series of hearings, by the absence of effective planning 
and determined leadership at all levels of government, and that 
is an issue that we will continue to pursue as well. I thank 
you for increasing our understanding.
    Senator Lieberman, do you have any final comment?
    Senator Lieberman. I think you said it just right, and I 
appreciate it. These are good people who are working hard under 
tough circumstances, some of whom performed heroic service, and 
a lot of people are alive today as a result of it. But the 
really infuriating reality is the extent to which the warnings 
were being given and people at all levels of government did not 
respond. There was a lot more damage done to life and property 
as a result of an admittedly catastrophic storm than should 
have been the case.
    I take some heart, Mr. Lokey, from hearing about some of 
the things you said that FEMA is beginning to do internally, 
and we hope that coming out of this, by telling the story, by 
putting it all together and enabling everybody, including the 
public, to look back and see how this happened, that we will 
generate both the pressure and, frankly, the kind of support 
that you all need to do the jobs you do, to put the structures 
in place, and then to fund them. I am sure there was a good 
reason why somebody in the New Orleans Government or in the 
Federal Government did not give you exactly what you needed. 
You requested the boats, and you did not get them. But it was 
not a good enough reason, as you look back at it, and it sure 
was penny-wise and pound-foolish when you think about the 
terrible damage that resulted from it.
    So you have helped us very much today in your testimony, 
and we are going to take it and try to make something 
constructive out of it. Thank you very much for your service.
    Chairman Collins. Thank you for your cooperation. The 
hearing record will remain open for 15 days. This hearing is 
now adjourned.
    [Whereupon, at 3:55 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6751.001

[GRAPHIC] [TIFF OMITTED] T6751.002

[GRAPHIC] [TIFF OMITTED] T6751.003

[GRAPHIC] [TIFF OMITTED] T6751.004

[GRAPHIC] [TIFF OMITTED] T6751.005

[GRAPHIC] [TIFF OMITTED] T6751.006

[GRAPHIC] [TIFF OMITTED] T6751.007

[GRAPHIC] [TIFF OMITTED] T6751.008

[GRAPHIC] [TIFF OMITTED] T6751.009

[GRAPHIC] [TIFF OMITTED] T6751.010

[GRAPHIC] [TIFF OMITTED] T6751.011

[GRAPHIC] [TIFF OMITTED] T6751.012

[GRAPHIC] [TIFF OMITTED] T6751.013

[GRAPHIC] [TIFF OMITTED] T6751.014

[GRAPHIC] [TIFF OMITTED] T6751.015

[GRAPHIC] [TIFF OMITTED] T6751.016

[GRAPHIC] [TIFF OMITTED] T6751.017

[GRAPHIC] [TIFF OMITTED] T6751.018

[GRAPHIC] [TIFF OMITTED] T6751.019

[GRAPHIC] [TIFF OMITTED] T6751.020

[GRAPHIC] [TIFF OMITTED] T6751.021

[GRAPHIC] [TIFF OMITTED] T6751.022

[GRAPHIC] [TIFF OMITTED] T6751.023

[GRAPHIC] [TIFF OMITTED] T6751.024

[GRAPHIC] [TIFF OMITTED] T6751.025

[GRAPHIC] [TIFF OMITTED] T6751.026

[GRAPHIC] [TIFF OMITTED] T6751.027

[GRAPHIC] [TIFF OMITTED] T6751.030

[GRAPHIC] [TIFF OMITTED] T6751.031

[GRAPHIC] [TIFF OMITTED] T6751.032

[GRAPHIC] [TIFF OMITTED] T6751.033

[GRAPHIC] [TIFF OMITTED] T6751.034

[GRAPHIC] [TIFF OMITTED] T6751.035

[GRAPHIC] [TIFF OMITTED] T6751.036

[GRAPHIC] [TIFF OMITTED] T6751.037

[GRAPHIC] [TIFF OMITTED] T6751.038

[GRAPHIC] [TIFF OMITTED] T6751.039

[GRAPHIC] [TIFF OMITTED] T6751.040

[GRAPHIC] [TIFF OMITTED] T6751.041

[GRAPHIC] [TIFF OMITTED] T6751.028

[GRAPHIC] [TIFF OMITTED] T6751.029

                                 <all>

</pre></body></html>
